<html>
<title> - H.R. 6247, SAVING OUR DAMS AND NEW HYDROPOWER DEVELOPMENT AND JOBS ACT OF 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                      H.R. 6247, SAVING OUR DAMS
                          AND NEW HYDROPOWER
                       DEVELOPMENT AND JOBS ACT
                                OF 2012

=======================================================================

                       LEGISLATIVE FIELD HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

            Wednesday, August 15, 2012, in Pasco, Washington

                               __________

                           Serial No. 112-125

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
75-703                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7215021d32110701061a171e025c111d1f5c">[email&#160;protected]</a>  


                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      Betty Sutton, OH
Scott R. Tipton, CO                  Niki Tsongas, MA
Paul A. Gosar, AZ                    Pedro R. Pierluisi, PR
Raul R. Labrador, ID                 John Garamendi, CA
Kristi L. Noem, SD                   Colleen W. Hanabusa, HI
Steve Southerland II, FL             Paul Tonko, NY
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Jon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel


                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, August 15, 2012.......................     1

Statement of Members:
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     1
        Prepared statement of....................................     4
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     5

Statement of Witnesses:
    Flint, Thomas W., President of the Board of Commissioners, 
      Grant County Public Utility District, and Founder, Save Our 
      Dams, Ephrata, Washington..................................     8
        Prepared statement of....................................     9
    Heffling, Jack W., President, United Power Trades 
      Organization, West Richland, Washington....................    14
        Prepared statement of....................................    15
    Miles, Rebecca A., Lapwai, Idaho.............................    30
        Prepared statement of....................................    32
    Rowe, Kara, Director of Affairs & Outreach, Washington 
      Association of Wheat Growers, Ritzville, Washington........    10
        Prepared statement of....................................    11
    Sanders, James W., General Manager, Benton County Public 
      Utility District, Kennewick, Washington....................    18
        Prepared statement of....................................    19
    Spain, Glen H., Northwest Regional Director, Pacific Coast 
      Federation of Fishermen's Associations (PCFFA), Eugene, 
      Oregon.....................................................    21
        Prepared statement of....................................    23
    Voigt, Chris, Executive Director, Washington State Potato 
      Commission, Advisory Board Member, Family Farm Alliance, 
      Moses Lake, Washington.....................................    38
        Prepared statement of....................................    40
    Yost, James A., Idaho Council Member and Chairman of the 
      Power Committee, Northwest Power and Conservation Council, 
      Boise, Idaho...............................................    35
        Prepared statement of....................................    36
                                    



LEGISLATIVE HEARING ON H.R. 6247, TO PROTECT THE FEDERAL COLUMBIA RIVER 
 POWER SYSTEM, POWER MARKETING ADMINISTRATION CUSTOMERS, AND BUREAU OF 
 RECLAMATION DAMS AND OTHER FACILITIES AND TO PROMOTE NEW FEDERAL AND 
   OTHER HYDROPOWER GENERATION. ``SAVING OUR DAMS AND NEW HYDROPOWER 
                  DEVELOPMENT AND JOBS ACT OF 2012.''

                              ----------                              


                       Wednesday, August 15, 2012

                     U.S. House of Representatives

                     Committee on Natural Resources

                           Pasco, Washington

                              ----------                              

    The Committee met, pursuant to call, at 8:58 a.m., in Room 
2, TRAC Center, 6600 Burden Boulevard, Pasco, Washington, Hon. 
Doc Hastings [Chairman of the Committee] presiding.
    Present: Representatives Hastings and McClintock.

 STATEMENT OF HON. DOC HASTINGS, A REPRESENTATIVE IN CONGRESS 
                    FROM STATE OF WASHINGTON

    The Chairman. The Committee on Natural Resources will come 
to order.
    The Committee on Natural Resources today meets to hear 
testimony from our panel on H.R. 6247, the Saving Our Dams and 
New Hydropower Development and Jobs Act of 2012.
    To begin today's hearing, I would like to introduce members 
of the Yakima Composite Squadron, Civil Air Patrol Color 
Guard--it is a team to post the colors--consisting of Cadet 
Chief Master Sergeant Cody Bates with the American flag, Cadet 
Master Sergeant Adrian Rivera with the Washington State flag; 
two riflemen, Cadet Staff Sergeant Jacob LeMay, and Cadet Chief 
Master Sergeant Brittany Bates. And leading the Pledge of 
Allegiance will be Cadet Second Lieutenant Daniel Brooks. And 
representing the Tri-Cities Composite Squadron is Major Debra 
Calagochi.
    Please stand and I ask they post the colors.
    [Presentation of colors and the Pledge of Allegiance.]
    The Chairman. Thank you and as a token of our appreciation 
for participating, I would like to present an American flag to 
the composite squadron.
    The process of Committee hearings is, first of all, we note 
the presence of a quorum, which we have a quorum of the 
Committee. And in the process that we will follow today, I will 
make an opening statement. My colleague from California, Mr. 
McClintock, will make an opening statement. And then we will 
introduce the panelists and they will have an opportunity to 
make an opening statement. Then Mr. McClintock and I will ask 
questions, various questions of all of them.
    And for all of you that are here that aren't part of the 
panel but you would like to comment on the proceedings today, I 
invite you to do so. It will all be part of the Committee 
record. Right outside, there is all the information on how you 
can submit your testimony.
    So I want to thank all of you for being here. But that is 
the procedure by which we will work today.
    I will now recognize myself for my opening statement.
    This hearing comes just weeks before Bonneville Dam, the 
first major Northwest Federal dam built, celebrates its 75th 
anniversary with its dedication by then President Franklin 
Roosevelt. And several hundred miles upstream, Ice Harbor Dam, 
right up here on the Snake River, recently celebrated its 50th 
anniversary.
    For decades, these and many other Federal and non-Federal 
hydropower dams, 11 right here in central Washington, were 
constructed to harness the cleanest, most efficient form of 
energy. Regionally, Northwest dams produce over 70 percent of 
power in Washington, 80 percent in Idaho, and about 60 percent 
in Oregon. These dams produce about 14,000 megawatts of 
electricity every year. That is the equivalent of power needed 
for 11 cities the size of Seattle every year. So dams help make 
possible intermittent sources of energy like wind and solar, 
and help keep our electric transmission system reliable.
    These dams were also built for other important reasons, 
including flood control, irrigation for hundreds of thousands 
of acres of farms, recreation, and for navigation and 
transportation of goods to markets around the world.
    There is no disagreement about the importance of salmon 
recovery, but it must be clearly stated that dams are helping 
that recovery. With significant improvements to Columbia and 
Snake River dams, more fish are in the river than before the 
dams were built, and fish survival past these dams are much 
higher than ever before, up to 98 percent in some cases. So 
while some insist that the choice is dams or fish, it has been 
proven we can have dams and fish.
    Our current Northwest dam infrastructure provides energy to 
our industries, businesses, and our families, and it does so at 
a low cost. But we must not be satisfied with the status quo. 
With ongoing threats to these dams and future development of 
hydropower as a renewable resource, we simply cannot take the 
status quo for granted. That is the purpose of both this 
legislation that I have proposed and for this hearing: to 
protect and promote our Nation's valuable hydropower assets.
    The bill I introduced 2 years ago shines a bright light on 
the enormous benefits and potential of Federal and non-Federal 
hydropower dams, both in the Northwest and across the Nation. 
The bill, as with all legislation, is a starting point for a 
discussion and contains common sense actions to protect this 
renewable energy resource.
    For example, this bill, plain and simple, declares that 
hydropower is a renewable source of energy.
    [Applause.]
    The Chairman. Amazingly, some of the loudest advocates for 
increasing our Nation's renewable energy supply refuse to 
recognize that hydropower is renewable.
    The bill also states that no Federal dam breaching 
activities, including costly studies, can occur without the 
express approval of Congress. No single person, be they an 
unelected bureaucrat or a Federal judge, should ever have 
authority to initiate such actions.
    The bill would also block the imposition of the Chu Memo 
that would force power rate increases by BPA and other power 
marketing authorities across the country.
    This bill would ensure that common sense guides decisions 
on costly spill of water past turbines, an often wasteful 
policy that has continued even when science shows that spill 
harms fish more than the transportation of fish.
    The bill would provide that families and businesses served 
by BPA and the other power marketing authorities receive 
transparent, honest information on how much of their power goes 
to fish recovery and how much of their cost of energy supports 
alternative sources of energy such as wind power.
    The bill would also prohibit groups filing lawsuits against 
the Government from collecting Federal funds or grants. Why 
should a group that gets Federal funds, when they sue the 
Government and the taxpayer is acting as the defendant--why 
should the taxpayer also be funding the plaintiffs? And that is 
what this bill corrects.
    [Applause.]
    The Chairman. And the bill would ensure accountability from 
Federal agencies to ensure they don't use the Federal dam 
relicensing process as a hostage-taking exercise to bleed dam 
operators for money or unjustifiable policies. And it does this 
very simply: it requires agencies to justify their actions in 
the light of day, not behind closed doors and it establishes 
FERC as the referee to decide which mandatory conditions sought 
by another Federal agency or bureaucracy has any merit.
    So these are just some, but not all of the bill's 
highlights.
    Again, the purpose of this bill is to protect and promote 
the clean, green, renewable hydropower that is generated from 
dams and the many benefits that provides.
    A little history. Back in 2000, the campaign to tear out 
the Snake River dams was waged as a full public debate, but the 
dam removal extremists lost that battle. They lost because the 
people of the Pacific Northwest know that removal of these dams 
would be an extreme action that would cost jobs, increase power 
rates, and harm our region's economy. And they lost because the 
science doesn't even show that removal of dams will actually 
recover fish.
    This defeat, however, didn't end the single-minded agenda 
of the dam removal extremists. Over the past decade, they have 
changed their tactics from an overt to a more covert way, but 
they are as committed and as well funded as ever. They have 
poured their money into lawyers and lawsuits aimed at 
pressuring Federal agencies and seeking to advance their agenda 
in the courts, and we in the Northwest know that this 
particularly happened in a courtroom of a Portland judge who 
has now admitted his anti-dam bias. The threat of the Snake 
River and other dams is very real, and the common sense actions 
in this straightforward bill are intended to shine a light on 
these tactics to help stop this wasteful and extreme campaign 
and to protect these assets and our renewable energy sources.
    So that is the subject of today's hearing. I look forward 
to hearing the testimony of our witnesses.
    And with that, I will recognize my colleague from 
California, the Chairman of the Water and Power Subcommittee on 
the Committee of Natural Resources, Tom McClintock. Tom?
    [The prepared statement of Mr. Hastings follows:]

          Statement of The Honorable Doc Hastings, Chairman, 
                     Committee on Natural Resources

    This hearing comes just weeks before Bonneville Dam--the first 
major Northwest federal hydropower dam to be built--celebrates the 75th 
anniversary of its dedication in 1937 by President Franklin Roosevelt. 
Several hundreds of miles upstream, Ice Harbor Dam, one of the lower 
Snake River dams, recently celebrated its 50th anniversary.
    For decades, these and many other federal and non-federal 
hydropower dams--11 alone right here in central Washington--were 
constructed to harness the cleanest, most efficient form of energy. 
Regionally, Northwest dams produce over 70 percent of the power in 
Washington, 80 percent in Idaho, and about 60 percent of Oregon. These 
dams produce about 14,000 average megawatts of electricity every year--
equivalent to the power needed for 11 cities the size of Seattle every 
year. Dams help make possible intermittent sources of energy like wind 
and solar, and help keep our electric transmission system reliable.
    These dams were also built for other important purposes, including 
flood control, providing irrigation for one of the most productive 
agricultural areas of the nation, for recreation, and to provide a 
vital navigation link to transport billions of dollars worth of wheat, 
grains and goods to markets around the world.
    There is no disagreement about the importance of salmon recovery, 
but it must be clearly stated that dams are helping recovery. With 
significant improvements to Columbia and Snake River dams, more fish 
are in the river than before the dams were built--and fish survival 
past the dams are much higher than ever before--up to 98 percent in 
some cases. While some insist the choice is ``dams or fish'', it's been 
proven we can have ``fish and dams.''
    Our current Northwest dam infrastructure cleanly powers our 
industries, businesses, jobs and families--and at low cost. But we must 
not be satisfied with the status quo. With ongoing threats to these 
dams and future development of hydropower as a renewable resource, we 
simply cannot take the status quo for granted. This is the purpose of 
the legislation that I've proposed and this hearing: to protect and 
promote our valuable hydropower assets.
    The bill I introduced two weeks ago shines a bright light on the 
enormous benefits and potential of federal and non-federal hydropower 
dams, both in the Northwest and across the nation. The bill, as with 
all legislation, is a starting point for discussion and contains common 
sense actions to protect this renewable energy source.
    For example, the bill, plain and simple, declares that hydropower 
is a renewable source of energy. Amazingly, some of the loudest 
advocates for increasing our nation's renewable energy supply refuse to 
recognize hydropower as renewable.
    The bill also states that no federal dam breaching activities, 
including costly studies, can occur without the express approval of 
Congress. No single person, be they an unelected bureaucrat or federal 
judge, should ever have authority to initiate such an action.
    The bill would also block imposition of the ``Chu Memo'', ordered 
by the Secretary of Energy, that could force power rate increases by 
BPA and other power marketing administrations (PMA's).
    The bill would ensure common sense guides decisions on the costly 
spill of water past dam turbines--an often wasteful policy that has 
continued even when science shows spill harms fish more than the 
transportation of fish.
    The bill would provide that families and businesses served by BPA 
and other PMA's receive transparent, honest information on how much of 
their power bill goes to fish recovery and how much supports wind power 
development.
    The bill would prohibit groups filing lawsuits against the 
government from collecting federal funds and grants with the other 
hand. Why should taxpayers fund both defendants and plaintiffs?
    And the bill would ensure accountability from federal agencies to 
ensure they don't use the federal dam relicensing process as a hostage-
taking exercise to bleed dam operators for money or unjustifiable 
policies. It does this very simply: it requires agencies to justify 
their actions in the light of day, not behind closed doors, and 
establishes FERC, the Federal Energy Regulatory Commission, as the 
referee to decide which mandatory conditions sought by a federal 
bureaucracy have merit.
    Those are some, but not all of the bill's highlights.
    Again, the purpose of this bill is to protect and promote the 
clean, green, renewable hydropower generated from dams, and the many 
other benefits they provide.
    Back in 2000, the campaign to tear out the Snake River dams was 
waged as a full public debate, but the dam removal extremists lost that 
battle. They lost because the people of the Pacific Northwest know that 
removal of these dams would be an extreme action that would cost jobs, 
increase power rates, and harm the region's economy. And they lost 
because the science doesn't even show removal will actually recover 
fish.
    This defeat didn't end the single-minded agenda of the dam removal 
extremists. Over the past decade, they changed their tactics from the 
overt to the more covert--but they are as committed and well-funded as 
ever. They've poured their money into lawyers and lawsuits aimed at 
pressuring federal agencies and seeking to advance their agenda in the 
courts, and particularly in the courtroom of a Portland judge who's now 
admitted his anti-dam bias. The threat to the Snake River and other 
dams is very real--and the common sense actions in this straightforward 
bill are intended to shine a light on these tactics, help stop this 
wasteful and extreme campaign, and protect these valuable assets and 
renewable energy sources.
    These are the subjects of today's hearing and I look forward to 
hearing the testimony of the witnesses.
                                 ______
                                 

STATEMENT OF HON. TOM McCLINTOCK, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. McClintock. Thank you, Mr. Chairman. Thank you for your 
leadership on this issue. Thank you especially for introducing 
H.R. 6247 and for holding this hearing to examine and expose 
the continuing drive of the environmental left to destroy our 
Nation's system of dams.
    You know, like the people here, the people in my district 
have awakened to the threat that this political extremism poses 
to their prosperity and their quality of life. The people of my 
district, as the people of yours, understand the vital role 
that our dams play not just in assuring abundant supplies of 
clean water, not just in supplying clean, cheap, and plentiful 
electricity and critically important flood controls, but also 
they understand the major contribution that these dams make to 
protecting our environment.
    Some people seem to have forgotten that before the era of 
dam construction, the endless cycle of withering droughts and 
violent floods constantly plagued our watersheds. Our dams 
tamed these environmentally devastating events. They assured 
abundant water in dry years and protected against the ravages 
of floodwaters. By conserving water that would otherwise have 
been lost to the ocean, they turned deserts into oases and laid 
the foundation for a century of growth and prosperity for the 
American West.
    But over the last few decades, a radical and retrograde 
ideology has seized our public policy. It springs from the 
bizarre notion that ``mother earth'' must be restored to her 
pristine, prehistoric condition even if it means restoring the 
human population to its pristine, prehistoric condition.
    [Applause.]
    Mr. McClintock. They are not satisfied with merely blocking 
construction of new dams. They are now seeking to destroy our 
existing facilities.
    My district touches the Klamath Valley where the 
environmental left seeks to spend well over a quarter billion 
dollars tearing down four perfectly good hydroelectric dams 
that are capable of producing clean and inexpensive electricity 
for the equivalent of 150,000 homes. Now, at a time when 
California is using less electricity per capita than any other 
State, when we are already paying among the highest electricity 
prices in the Nation, when we can't guarantee enough 
electricity to keep people's refrigerators running--we are 
currently under the threat of rolling blackouts--when we are 
facing a crushing budget deficit, I submit to you that this 
proposal is simply insane. We are told that it is necessary 
to----
    [Applause.]
    Mr. McClintock. And by the way, I am told if they succeed 
on the Klamath, the Snake River is next.
    We are told that this is necessary to save dwindling 
populations of salmon on the Klamath. Yet, the Iron Gate Fish 
Hatchery produces 5 million salmon smolts a year, 17,000 of 
which return to the Klamath as fully grown adults to spawn, but 
they are not included in the population count. And to add 
insult to insanity, when they tear down the Iron Gate Dam, the 
Iron Gate Fish Hatchery goes with it.
    Now, we are going to hear a representative sampling of the 
arguments made in support of this lunacy in the next few 
minutes. We will be told, for example, that well, most of these 
dams are aging and obsolete and far too expensive to maintain 
and operate. But it is not the maintenance and operation of the 
dams that is becoming cost prohibitive. It is the outrageously 
excessive bureaucratic regulations that these groups have 
successfully imposed upon the operations and maintenance. They 
impose the costs and then they complain that it is just too 
expensive to run these dams anymore.
    [Applause.]
    Mr. McClintock. Well, not once will you hear them propose 
replacing a purportedly aging dam with a new one. Their agenda 
is not to maintain or improve the dams. Their agenda is to 
destroy them.
    Now, they claim they want abundant salmon populations, but 
they seek to destroy our salmon hatcheries that produce a 
staggering abundance of salmon. They even oppose measures to 
control invasive, non-native predators like bass that consume a 
vast proportion of the juvenile salmon population before it 
reaches the ocean.
    To me, these glaring hypocrisies destroy their credibility 
and reveal an unabashedly nihilistic agenda. The future they 
advocate is one of increasingly severe Government-induced 
shortages, higher and higher electricity and water rates, 
skyrocketing grocery prices and spreading food shortages, 
massive taxpayer subsidies to politically well-connected 
industries, and a permanently declining quality of life for our 
families will be required to stretch and ration every drop of 
water and every watt of electricity in their bleak and stifling 
and dimly lit homes, homes in which gravel has replaced green 
lawns and toilets constantly back up.
    Mr. Chairman, I believe that your bill, H.R. 6247, offers 
us a very different future for our Nation, a future of clean, 
cheap, and abundant hydro electricity, great new reservoirs to 
store water in wet years and to protect us from shortages in 
dry ones. It envisions a future in which families can enjoy the 
prosperity that plentiful water and electricity provide. It 
envisions a Nation whose families can look forward to a green 
front law, a lush garden in the back, inexpensive and reliable 
air conditioning in the summer and heating in the winter, 
brightly lit homes in cities, and abundant and affordable 
groceries from America's agricultural cornucopia.
    This is one of the many clear choices the American people 
will make in coming days. From what I have seen and heard 
across the country and in my district and now here in yours, I 
believe our brightest days are yet ahead.
    [Applause.]
    The Chairman. Tom, thank you very much for your opening 
statement.
    And I now want to introduce the panel. We have, starting 
from my left--that would be your right obviously--Mr. Tom Flint 
who is the President of the Board of Commissioners of the Grant 
County PUD from Ephrata. Tom, thank you for being here. Ms. 
Kara Rowe, Director of Affairs and Outreach with the Washington 
Association of Wheat Growers in Ritzville; Mr. Jack Heffling, 
President of the United Power Trades Organization in West 
Richland; Mr. Jim Sanders, General Manager of the Benton County 
PUD here in Kennewick; Mr. Glen Spain, the Northwest Regional 
Director of the Pacific Coast Federation of Fishermen's 
Associations out of Eugene, Oregon; Ms. Rebecca Miles from 
Lapwai, Idaho; Mr. Jim Yost, the Idaho Council Member and 
Chairman of the Power Committee, Northwest Power and 
Conservation Council out of Boise, Idaho; and Mr. Chris Voigt, 
Executive Director of the Washington Potato Commission out of 
Moses Lake.
    Let me explain how the lighting works. You have all 
submitted testimony to the Committee, and some of it is more 
than 5 minutes in length. That we know and that is fine. But we 
have timing lights here, right here in front of me. And when 
the green light goes on, it means that your 5 minutes has 
started. When the yellow light goes on, that means you have 
used 4 minutes. And I would ask you to try to wrap up, and when 
the red light goes on, you don't want to know what happens.
    [Laughter.]
    The Chairman. I will just ask you to try to finish your 
thoughts in that timeframe. And then after each of you have 
completed your testimony, Mr. McClintock and I do have some 
questions.
    Again, for any of you that want to participate with your 
thoughts, outside there are directions on how you can 
communicate with the Committee.
    So with that, I am very pleased to introduce Mr. Tom Flint, 
the Chairman of the Grant County PUD. Tom, you are recognized 
for 5 minutes.

    STATEMENT OF THOMAS W. FLINT, PRESIDENT OF THE BOARD OF 
 COMMISSIONERS, GRANT COUNTY PUBLIC UTILITY DISTRICT, EPHRATA, 
                           WASHINGTON

    Mr. Flint. I want to thank you, Doc, for this opportunity 
to testify. It seems like it was about--what I hear earlier 
today--13\1/2\ years ago that we were on the cable suspension 
bridge and I see a lot of familiar faces. It was a cold and 
windy evening, but our message was well heard like I think our 
message is well heard today as well.
    I would like to start by letting you know a little about 
myself. My family came here in 1955 from Scottsbluff, Nebraska. 
We were dry land dirt farmers there. I am a fifth generation 
farmer. I am a second generation farmer to the Columbia Basin 
Project. We came here because of the Grand Coulee Dam and the 
irrigation project, and it has been a very good project and 
most of us would not be here today if it wasn't for that 
project. And it also had some national defense attributes that 
a lot of times gets overlooked.
    My wife and I--Kathy who is here today--farm a diversified 
family farm in Grant County, Washington. I happen to be the 
tenured Commissioner of the Grant County PUD, and we have two 
hydro projects on the Columbia River, Wanapum and Priest Rapids 
Dams.
    As many of you know, a few years ago, there was a movement 
to breach dams on the Snake River, and as a result of that, I 
started a grassroots Save Our Dams campaign, an organization to 
help educate and provide information that was not being 
presented in this process. With a lot of your help and from 
volunteers, we started the Save Our Dams petition, and 
remarkably we collected over 880,000 signatures in support of 
keeping Snake River dams. And that would be approximately 13 
years ago.
    The justification for keeping the dams are as important 
today as it was a few years ago. As a society, we deal with our 
economy, global warming, irrigated agriculture, endangered 
species, and renewable energy.
    As many of you might recall, the dam breaching proponents 
focused a lot around the poster child, salmon, Lonesome Larry 
from Redfish Lake, Idaho. The rational being that the Snake 
River dams had destroyed the salmon runs and that he was the 
sole surviving fish.
    But there is a lot more to this story. What you did not 
hear was that the Idaho Department of Fish and Game poisoned 
Redfish Lake in the mid-1970's to change it into a pristine 
trout fishing lake. However, a few salmon survived the 
poisoning.
    To say that the Snake River dams are completely responsible 
for the demise of salmon runs is not entirely correct and has 
been the catalyst for this issue between fish and dams. Today 
we know that with the use of fish-friendly technology, the 
salmon, Lonesome Larry, is not so lonesome anymore, and the 
fish runs are improving becoming better and better as time goes 
on.
    As a farmer and a Grant County PUD Commissioner, today I 
can tell you we look for win-win opportunities for fish and 
dams. Grant PUD is a consumer-owned utility that serves rural 
and predominantly agricultural populations. We own and operate 
significant electric generation assets, all of which are 100 
percent renewable. Hydropower, small irrigated canal hydro, and 
wind power comprise our total combined generating capacity of 
2,000 megawatts, with the vast majority of the capacity coming 
from our two hydropower projects, Priest Rapids and Wanapum 
Dams. These valuable renewable resources support reliable 
electricity delivery, clean air, and significant economic 
benefits for millions of families and businesses throughout the 
Pacific Northwest.
    At our Wanapum Dam, we are installing more efficient, fish-
friendly, advanced hydro turbines and generators that will 
boost the project generation by 12 percent. And I see I have 
the red light there.
    The Chairman. Finish your thought.
    Mr. Flint. OK.
    Essentially what we have done is we have used this 
technology for increasing the survival rate to 95 percent of 
the salmon that come down the river. Our goal was 95 percent, 
and we have done something that is extremely unique. We have 
actually cut a hole in the dam about 20 feet wide by 40 feet 
deep, and it is a salmon slide, if you will. It is a bypass 
system, and it has a 99 percent survival rate.
    [The prepared statement of Mr. Flint follows:]

            Statement of Tom Flint, Founder of Save Our Dams

    Thank you for this opportunity to Testify at this field hearing. I 
would like to start by letting you know a little about me and how I got 
here. My family came here in 1955 from Scottsbluff Nebraska to Quincy 
Washington to farm in the Columbia Irrigation Project that was created 
by Grand Coulee Dam. I am a fifth generation Farmer and second 
generation farmer in the Columbia Basin, operating a irrigated 
diversified family farmer near Ephrata Washington. I am also the 
tenured Commissioner on the Grant County Public Utility District which 
has two Hydro protects, Wanapum and Priest Rapids dams on the Columbia 
River.
    As many of you know a few years ago there was a movement to Breach 
the Dams on the Snake River and as a result of that I started a grass 
roots Save Our Dams organization to help educate and provide 
information that was not being presented in the process. With a lot of 
your help from volunteers we started the Save Our Dams petition and 
collect over 880,000 signatures in Support of keeping the Snake River 
Dams. The justification for keeping the dams are as important today as 
it was a few years ago. as a society we deal with our economy, global 
warming, irrigated agriculture and renewable energy.
     As many of you might recall the Dam Breaching proponents focused a 
lot of around the salmon Lonesome Larry from Redfish Lake in Idaho. The 
rational being that the Snake River Dams had destroyed the salmon runs 
and he was the sole surviving fish. What you did not hear was that the 
Idaho Department of Fish and Game poisoned Redfish lake in the mid 70's 
to change it into a pristine Trout fishing Lake and a few Salmon 
survived the poisoning. To say that the Snake River Dams are completely 
reasonable for demise of the Salmon run in not entirely correct and has 
been the catalyst for this issue between fish and dams. Today we know 
with the use of fish Friendly Technology Lonesome Larry is not so 
lonesome and the fish runs are improving and becoming better and better 
as time goes on.
    As a farmer and Grant County PUD Commissioner today I can tell u we 
look for win win opportunities for fish and dams today. Grant Pud is a 
consumer-owned utility that serves rural, predominantly agricultural 
population. We won and operated significant electric generation assets, 
all of which are 100 percent renewable. Hydropower, small irrigation 
canal hydro and wind power comprised our total combined generating 
capacity of 2,000 megawatts, with the vast majority of capacity coming 
from our two hydropower projects, Priest Rapids and Wanapum Dams. These 
valuable renewable resources support reliable electricity delivery, 
clean air and significant economic benefits for millions of families 
and businesses throughout the Pacific Northwest. At our Wanapum Dam, we 
are installing more efficient fish friendly generating equipment with 
environmental enhancement technologies. The Advanced-design
    Hydropower turbines and generators will boost the projects 
generation capacity by 12 percent, and has fish passage survival rate 
of 97 percent which is above our goal of 95 percent. We also built and 
innovative $35 million fish slide or fish bypass, which studies show a 
fish survival rate of 99 percent for steelhead and salmon,
    We are committed to maximize renewable hydropower generation and 
environmental performance goes hand-in-hand at Grant PUD. As 
challenging as it is to manage both efforts, we operate with the belief 
that balancing these important outcomes can be compatible and 
sustainable.
    As I conclude I would I would like to say we with the use of fish 
friendly technologies, We can have fish and new sustainable hydropower 
and I and the Commissioners at Grant PUD support H.R. 6247 that Doc 
Hastings has presented.
    Thank You.
                                 ______
                                 
    The Chairman. Thank you very much for your testimony.
    And now I will recognize Ms. Kara Rowe, who is the Outreach 
Director of the Washington Association of Wheat Growers out of 
Ritzville. You are recognized for 5 minutes.

   STATEMENT OF KARA ROWE, DIRECTOR OF AFFAIRS AND OUTREACH, 
 WASHINGTON ASSOCIATION OF WHEAT GROWERS, RITZVILLE, WASHINGTON

    Ms. Rowe. Thank you, Doc. Good morning.
    In addition to being the Affairs and Outreach Director for 
the Wheat Growers, I am also a fourth generation farm kid and 
an outdoor enthusiast. So thank you for giving me the 
opportunity this morning.
    As farmers, we have learned that we need both progress and 
stewardship in order to survive. One cannot come without the 
other. The same can be said of the Columbia/Snake River system 
we have today, each component as vital as the other.
    The irrigation provided by the canal system of the Columbia 
Basin Project cannot be replaced. The food grown in this region 
cannot be grown as efficiently anywhere else. There just simply 
isn't enough arable land.
    Also, the canal system using water from the Columbia takes 
pressure off deep well irrigation and our declining aquifers. 
That is how my family benefits from the Columbia Basin Project. 
We are not in the basin and we do not irrigate. However, we do 
know that these canals in our basin project take pressure off 
of our declining aquifers. If you remove that, our lakes, our 
towns, and our farms will dry up at an increased rate. In fact, 
the Washington Wheat Growers support increasing the canal 
system in order to take pressure off our Odessa Aquifer.
    The transportation benefit provided by the Columbia/Snake 
River system gives us the most clean and efficient way to get 
our products to market. Without the barges, more than 700,000 
trucks would be on our highways. Simply put, the Columbia/Snake 
River system and the infrastructure we have in place saves 
lives every day.
    The infrastructure of our river system uses barges and our 
barges simply use less fuel than our trains. It is the most 
effective way we have to get our products to market.
    Hydropower, I could go on for hours and hours about the 
benefits of hydropower, but there are much smarter people here 
than I to talk to you about that today. Simply put, the 
Washington Wheat Growers support hydropower as a renewable 
energy resource.
    As we find and we struggle to find and replace fossil 
fuels, we have the cleanest, most efficient way to produce 
electricity in this Nation in our own back yard. Hydropower 
provides such a small portion of our Nation's electricity. I am 
not a rocket scientist, but that simply does not seem right. I 
have lived without power. Living without power in our rural 
communities is simply a way of life. I am tough, but it is not 
fun.
    We have learned to incorporate progress and stewardship on 
our farms. We have also learned how to do the same thing on our 
Columbia/Snake River system. Record numbers of fish are 
returning. Between the climatic atmosphere and our oceans and 
the efforts that we have done here inland, we have not only 
increasing numbers, but we have record numbers of fish coming 
in.
    Every day my job with the Wheat Growers, I open up the 
paper and I read what is wrong with America. I am so proud to 
be here as an outdoor enthusiast, as a farm kid to say that our 
farms and the Columbia/Snake River system is an example of what 
is right.
    Thank you for the opportunity this morning.
    [Applause.]
    [The prepared statement of Ms. Rowe follows:]

        Statement of Kara Rowe, Director of Affairs & Outreach, 
                Washington Association of Wheat Growers

    Chairman Hastings, Ranking Member Markey and Members of the 
Committee, thank you for the opportunity to address you today. My name 
is Kara Rowe, and I am the Affairs and Outreach Director for the 
Washington Association of Wheat Growers. I am an outdoor enthusiast and 
also a 4th generation farm kid from Creston, Wash., where my family 
raises soft white winter wheat, dark northern spring wheat and beef 
cattle.
    Our family has personally benefitted from the irrigation, 
hydropower and infrastructure created by the Columbia Snake River 
System. On behalf of all American taxpayers, I thank you for looking at 
this vital system that sustains our nation.
    When my great grandfather settled in Eastern Washington in 1887, he 
longed for an honest, responsible and clean way of life to raise his 
family. He worked for years in the mines of Anaconda and Butte, Mont., 
long before the days of OSHA and greenhouse gas emissions. He sewed his 
life savings into his boots and moved his family east away from the 
mining camps. He traded mining soot for some of the most fertile soil 
in the Western Hemisphere. By horse and plow he grew a generation. 
Today, he would be both proud and amazed at the stewardship practices 
we as his heirs have developed to grow our crops in the most safe, 
efficient and environmentally sound ways possible. Our ability to feed 
our neighbors and the world safely and competitively was only made 
possible through great progress and great stewardship.
    The same can be said for a major component we as Washington farmers 
rely heavily on: the Columbia River.

Watching the desert bloom
    My grandfather, watched as President Roosevelt developed one of the 
greatest infrastructure designs in American history. As he farmed along 
the Big Bend plateau west of Spokane, he watched the colossal 
undertaking of the mighty Grand Coulee Dam. After the Grand Coulee was 
built, he watched the desert south of our home bloom. The irrigation 
canals of Roosevelt's Columbia Basin Project (CBP) allowed for 
progress, and it gave hope to the helpless. It still does. The CBP is 
vital not only to the farmers of Washington, but to every American. 
According to the federal Bureau of Reclamation the yearly value of the 
irrigated crops within the CBP is $630 million. The food grown in this 
area includes everything from potatoes and apples to wheat and barley.
    Without the supplemental irrigation provided by the CBP, this area 
would again become desert. Tens of thousands of people would lose their 
way of life. Vibrant towns would become as dry as the dirt below them. 
Pressure on other areas to replace the agricultural value of the Basin 
will increase emissions and the carbon footprint. Arable land that can 
produce the same amount of food on so few acres so efficiently simply 
does not exist. The efficiencies and technology in irrigation now 
available to farmers allows them to grow their crops using water more 
effectively.
    While our family does not irrigate, we do have pasture and natural 
habitat that relies on healthy underground aquifer levels to provide 
water to our homes and herd. The current and future canal system of the 
CBP provides irrigation water to many farmers who may otherwise use 
deep well irrigation. Deep wells pull their water from the same aquifer 
that supplies our lakes, towns and homes with water. Without the canal 
system irrigation, deep well irrigation would deplete our aquifer at a 
drastically increased rate. With a vibrant canal system using a portion 
of the renewable river resource, deep well irrigation and aquifer 
depletion can be kept to a minimum.
    In fact, as an industry, the Washington wheat growers support 
continuing development of the Columbia Basin Project in order to 
minimize groundwater declines within the Odessa Groundwater Management 
Subarea.

Saving lives and saving export vitality
    The infrastructure provided by the Columbia Snake River System 
keeps American agriculture competitive, but it also saves lives. The 
Columbia Snake River System is the largest U.S. wheat and barley export 
gateway in the country, and the third largest in the world. Half of the 
wheat exported from the system moves by barge. Barging along the 365--
mile inland waterway is the cleanest and most fuel efficient mode of 
transportation--four times better than trucking. Breaching dams would 
end barge navigation, and put up to 700,000 more trucks on the highways 
and increase greenhouse gas emissions. The cargo capacity of one barge 
alone on the river is equal to 134 large semi trucks. That's a lot of 
big rigs and tires running on the highway. Having the choice to barge 
our grain and other commodities simply keeps our highways safer.
    Barging is also cheaper. Shipping farm products with the river 
system uses 40 percent less fuel per ton-mile than a rail system.
    Without barging along the Columbia Snake River system, our American 
agricultural system would suffer consequences affecting every American 
citizen. Trade would be slowed and economic impacts would be felt 
beyond our country's heartland. Hundreds of thousands of jobs are tied 
directly to the river system's activity, trade and commerce.
    More than $900 million has been spent on new investment in the 
Pacific Northwest because of the safe, clean and effective 
transportation system provided by the rivers. A new $200 million grain 
terminal just opened in Longview, Wash., allowing the Pacific Northwest 
to increase it's global competitiveness. American wheat farmers are 
known for growing the highest quality grain in the world. The fact that 
our customers are investing in terminals within the Pacific Northwest 
is not only good for the farmers, it's good for the nation. A thriving 
agricultural sector will lead our nation out of its recession. Safe, 
sound and efficient infrastructure allows us to be the best in the 
world.

Hydropower is more than a renewable resource
    During the bone-chilling winters in Eastern Washington, I grew up 
knowing that at least two or three days of the year our family 
homestead would be without power. We always had spare water jugs in the 
basement and the wood stove was ready to replace our electric furnace. 
I know the hardships of living without power only on the superficial 
surface. This summer, millions of people in the East Coast suffered 
multiple days without power during one of the worst heat waves in 
years. Even California has dealt with more ``brown outs'' than they 
care to handle in recent years. Imagine if we lost 40 percent of our 
nation's cleanest energy supply?
    Hydropower is inexpensive, sustainable and renewable. The power 
generated by the powerhouses on the lower Snake River generate enough 
power to supply a city the size of Seattle.
    Hydropower turbines convert 90 percent of available energy into 
electricity. This is more efficient than any other form of generation. 
Comparatively, wind has about 30 percent efficiency. Those hydro 
kilowatts are created in the cleanest way possible and all of that 
power, if taken off line, would have to be created in another way. The 
alternative options are coal-fired, gas-fired or nuclear.

[GRAPHIC] [TIFF OMITTED] T5703.001


    The hydropower on our rivers is not only the cleanest energy 
source, it's also the cheapest. According to Inland Power and Light, a 
local Washington electric utility that serves Eastern Washington, wind 
generation costs anywhere from $89 to $129 per kilowatt hour. This 
isn't cost effective compared to hydro, which costs Inland Power $30 
per megawatt hour (solar currently costs $280 per megawatt hour). 
Hydropower is the cleanest and cheapest form of power generation that 
exists.

Final thoughts
    My father taught me and my siblings at an early age that we, as 
farmers, are the true environmentalists. Taking care of our land is 
vital to our heritage and success. If we don't take care of our dirt, 
we will have nothing to pass along to our children and grandchildren. 
We, in Washington, feel the same about our water and natural resources. 
I grew up recreating in Lake Roosevelt and look forward to passing that 
tradition on to my child. As an outdoor enthusiast, I am thrilled that 
NOAA Fisheries has determined fish survival through the river system is 
higher today than it was before the Snake River dams were built. In 
fact, all the dams have highly effective juvenile passage systems. The 
increasing salmon numbers in our rivers illustrate that the targeted 
efforts of concerned individual landowners, Tribes, federal agencies, 
state governments and businesses are working to produce the 
improvements needed.
    It is incomprehensible to suggest elimination of infrastructure 
already in place. The U.S. Army Corps of Engineers has documented the 
devastating impact on agriculture, power, regional communities, and 
even the uncertainty to fish populations if the dams were breached.
    The Washington wheat growers supports an Endangered Species Act 
baseline that includes dams.
    I appreciate the opportunity to address you today, and look forward 
to working with you in the future.
                                 ______
                                 
    The Chairman. Thank you. Without realizing, you just 
yielded time to Tom Flint.
    [Laughter.]
    The Chairman. I now want to introduce Mr. Jack Heffling, 
the President of United Power Trades Organization out of West 
Richland. Mr. Heffling, you are recognized for 5 minutes.

 STATEMENT OF JACK W. HEFFLING, PRESIDENT, UNITED POWER TRADES 
            ORGANIZATION, WEST RICHLAND, WASHINGTON

    Mr. Heffling. Chairman Hastings, I am honored to speak on 
behalf of the United Power Trades Organization which represents 
over 600 highly skilled operations and maintenance employees 
who work at U.S. Army Corps of Engineers hydroelectric projects 
in the Portland, Seattle, and Walla Walla districts of the 
Northwest Division.
    The dams of the Columbia/Snake River system are considered 
multi-purpose in that they provide hydropower, flood control, 
navigation, irrigated agriculture, and recreation to the areas 
where they are located.
    Hydropower is clean, renewable and plays a significant role 
in Pacific Northwest power production. The dams of the 
Columbia/Snake River system alone produce enough power to meet 
the needs of more than 13 million homes and only hydropower has 
the instantaneous capability to meet peak demands. Hydropower 
costs much less to produce than any other source and is 
pollution-free with zero emissions. The firm power alone 
provided by the dams of the Columbia/Snake River system keeps 
close to 30 metric tons of CO<INF>2</INF> out of the air, 
equivalent to taking nearly 6 million cars off the road.
    Considering the four Lower Snake River dams alone, which 
are continually the subject of dam breaching, it has been 
estimated that the cost to replace these dams with a 
combination of wind, natural gas, and energy efficiency would 
cost between $759 million to $837 million per year.
    Navigation is a major benefit of the Columbia/Snake River 
system of dams and provides a vital transportation link for the 
States of Idaho, Montana, Oregon, and Washington. The economies 
of these four States rely on the trade and commerce that flows 
up and down the most important commercial waterway of the 
Northwest. Tens of thousands of jobs are dependent on this 
trade and local economies benefit from $15 million to $20 
million in annual revenue from the 15,000 passengers yearly on 
5- to 7-day cruise tours.
    Irrigated agriculture is the economic powerhouse of the 
West, with a net value to all western States over $60 billion. 
It is the dams that provide the water for irrigation and as a 
direct result help sustain the economy of the Northwest.
    Removal of the Snake River dams would be a detriment to a 
large amount of irrigated agriculture, would eliminate barging 
from Pasco to Lewiston, Idaho, and would damage the electrical 
infrastructure that relies on the generating units not only for 
power production, but for reactive support that helps to 
stabilize the electrical grid of the Northwest.
    It is a proven fact that science does not support the 
position that lower Snake River dams need to be removed in 
order to aid fish migration. Recent studies have shown that the 
survival rate of salmon migrating through the lower Snake dams 
is identical to that of those migrating from the Yakima 
drainage and even with those migrating from Fraser River in 
British Columbia that has no dams. These studies have shown 
that juvenile salmon transported by fish barges survive at five 
times the rate of those that were not barged.
    The facts speak for themselves. Dam removal will not 
increase fish survival and would have a significant impact on 
the Northwest economy and the environment.
    The United Power Trades Organization supports H.R. 6247 in 
that it sustains the job security of our workforce and 
thousands of employment opportunities that dams provide. It 
also ensures that the focus of salmon and steelhead recovery is 
on actions that actually work and help fish.
    Mr. Chairman, thank you for this opportunity to testify 
before this panel.
    [The prepared statement of Mr. Heffling follows:]

               Statement of Jack W. Heffling, President, 
                    United Power Trades Organization

    Chairman Hastings, Ranking Member Markey and Members of the 
Committee, thank you for this opportunity to testify and share the 
United Power Trades Organization's perspective on hydropower in our 
region. My testimony will primarily focus on the Columbia-Snake River 
system and more specifically on the four dams of the Lower Snake River 
Project.
    The United Power Trades Organization represents the Trades and 
Crafts non-supervisory employees at U.S. Army Corp of Engineers 
hydroelectric projects in Washington, Oregon, Idaho and Montana. These 
hydroelectric projects make up a portion of the Northwest Division of 
the Army Corps of Engineers and are divided up into the Portland, 
Seattle and Walla Walla Districts. The Walla Walla District includes 
four hydroelectric projects on the lower Snake River that seem to be 
the target of most dam removal proponents.
    The Northwest Division of the U.S. Army Corps of Engineers is a 
major employer and a huge contributor to the economy of the Pacific 
Northwest with an annual budget of over $3 billion and a professional 
workforce of nearly 4,800. The members of the United Power Trades 
Organization include the men and women who maintain and operate the 
equipment at the hydroelectric projects and number over 600. But this 
number doesn't include the engineers, administrators, biologists, park 
rangers and the hundreds of others whose jobs are directly connected to 
the dams, associated lands and reservoirs. Nor does it include the many 
private companies who by contract, also rely on the existence and 
operation of the dams for their employment.
    The dams of the Columbia-Snake River system are multipurpose in 
that they provide hydropower, flood control, navigation, irrigated 
agriculture and recreation. The benefits of the dams cannot be measured 
by megawatts alone but in the overall value they provide a region.
    Hydropower is clean, renewable and plays a significant role in 
Pacific Northwest power production. Northwest residents and businesses 
enjoy lower power bills when compared to other regions of the United 
States which is directly attributable to hydropower. The dams of the 
Columbia-Snake River system alone produce enough power to meet the 
needs of more than 13 million homes with the surplus exported, 
providing additional economic importance to the Northwest. Only 
hydropower has the instantaneous capability to meet peak demands and 
provide power for heat when temperatures are frigid or sustain power 
for cooling on exceptionally hot days. Hydropower costs much less to 
produce than any other source such as nuclear, coal or natural gas and 
is pollution free, with zero emissions. The firm power alone provided 
by the dams of the Columbia-Snake River system keeps close to 30 metric 
tons of CO<INF>2</INF> out of the air. This is similar to taking nearly 
6 million cars off the road.
    Hydropower is clean, carbon-free, renewable and reliable. Hydro 
supports wind and other renewables by providing the peaking power 
necessary to meet demand. Hydropower turbines are capable of converting 
90 percent of available energy into electricity, which is more 
efficient than any other form of generation. Even the best fossil fuel 
power plant is only about 50 percent efficient. Wind has about 30 
percent efficiency. After hydropower, 83 percent of the region's energy 
production is from fossil fuels coal or natural gas.
    Considering the four Lower Snake River dams alone, it would take 2 
nuclear, 3 coal-fired, or 6 gas-fired power plants to replace their 
annual power production. It would take 3 nuclear, 6 coal-fired, or 14 
gas-fired power plants to provide the peaking capacity of these four 
dams. It has been estimated that the cost to replace these dams with 
natural gas-fired generation would be $444 million to $501 million a 
year. It has also been estimated that it would cost $759 million to 
$837 million a year If these dams were replaced with a combination of 
wind, natural gas and energy efficiency.
    Navigation is a major benefit of the Columbia-Snake River system of 
dams. They provide 365 miles of navigable water from Portland/Vancouver 
to Lewiston, Idaho. Barging is the lowest cost, most fuel efficient and 
least polluting transportation mode. Each year, barging keeps 700,000 
trucks off the highways through the Columbia River Gorge. The facts 
speak for themselves. The Columbia-Snake River system is the number one 
wheat export gateway in the United States and the second largest wheat 
corridor in the world. It is the number one barley export gateway in 
the United States. It is number one in West Coast paper and paper 
products exports. It is number one in West Coast mineral bulk exports 
and number one in West Coast auto imports. Ten million tons of 
commercial cargo travel through the system annually with a value around 
two billion dollars.
    Navigation through the Columbia-Snake River system provides a vital 
transportation link for the states of Idaho, Montana, Oregon and 
Washington. The economies of these four states rely on the trade and 
commerce that flows up and down the most important commercial waterway 
of the Northwest. Navigation is fuel efficient. A ton of commodity 
goods can move 524 miles by barge on one gallon of fuel, compared to 
202 miles by rail and 59 miles by truck. The average barge can 
transport 3500 tons of wheat which would require 35 jumbo rail cars or 
134 trucks. The economic benefit of the Columbia-Snake River system 
cannot be doubted. Tens of thousands of jobs are dependent on this 
trade and local economies benefit from $15-20 million in annual revenue 
from the 15 thousand passengers yearly on 5-7 day cruise tours.
    Irrigated Agriculture is the economic powerhouse of the West. The 
net value of irrigated agriculture to all western states is over $60 
billion. Net earned income from agricultural production in the three 
Northwest states exceeds $8 billion annually. Northwest states are the 
leading U.S. producers of apples, potatoes, raspberries, blackberries, 
asparagus, currants, hops, lentils, concord grapes, sweet cherries, 
spearmint and peppermint oil, pears, sweet corn, and frozen peas. All 
of these crops are grown on irrigated land. Northwest exports of 
irrigated agricultural products exceed $1.4 billion annually. Food 
processing in the Northwest adds another $6 billion in sales value just 
for fruit, vegetables and specialty products. Food processing is the 
largest manufacturing employment sector in the state of Idaho and the 
second largest in both Washington and Oregon. The net direct value to 
the economy of one-acre foot of water, when used for irrigation is over 
$50 per acre-foot. The Columbia Basin Project alone supplies about 2.6 
million acre feet per year. It is the dams that provide the water for 
irrigation and as a direct result help sustain the economy of the 
Northwest.
    The Walla Walla District employs over 800 people, with over 400 
working at the hydroelectric projects McNary, Ice Harbor, Lower 
Monumental, Little Goose, Lower Granite and Dworshak. In addition to 
being a major employer, the District pumps millions of dollars into the 
local economies. The anticipated fiscal year 2012 budget for the 
District is $193 million with 57 percent of this funding coming 
directly from the Bonneville Power Administration (BPA). The power 
produced by the District dams, like other projects in the Northwest, is 
sold by BPA who, in turn, direct funds the operation and maintenance of 
the dams, plus provides additional funding for major work. This means 
that over $100 million annually is provided the area economy as a 
result of the power sales of these District hydroelectric projects.
    Removal of the Snake River dams would be a detriment to a large 
amount of irrigated agriculture, would eliminate barging from Pasco to 
Lewiston, Idaho, and would damage the electrical infrastructure that 
relies on these generating units not only for power production, but for 
reactive support that helps to stabilize the electrical grid of the 
Northwest. While BPA markets power from 31 federal dams, only the 10 
largest dams keep the federal power system operating reliably through 
Automatic Generation Control (AGC) which includes the four Lower Snake 
River projects. Under AGC, when total generation in the power system 
differs from the total load being consumed, automatic signals go to 
these few dams to increase or decrease generation. This is especially 
critical when generating facilities are suddenly added or dropped from 
the system. Removal of the dams would cost hundreds if not thousands of 
jobs. Jobs at the dams themselves would be lost, contracting jobs would 
be lost, farm jobs would be lost as a result of a large decrease in the 
amount of irrigated agricultural lands, and jobs related to the barging 
of commodities would be lost. The impact on the region would be 
devastating.
    The fact is that science does not support the position that the 
lower Snake River dams need to be removed in order to aid in fish 
survival. Scientists using special acoustic tags planted in fish found 
that the survival rate of Idaho juvenile salmon reaching the ocean 
identical to migrating salmon that originate in the Yakima drainage in 
Washington. In other words, juvenile salmon passing through the four 
Snake River dams suffered no higher mortality rate than those that did 
not. Even more surprising is findings that show the survival rate of 
both Yakima and Clearwater fish was the same as survival measured in 
the Fraser River in British Columbia, a river with no dams. In 
addition, another finding from the research revealed that juvenile 
salmon transported by fish barges survived from Lower Granite Dam to 
the northern tip of Vancouver Island at five times the rate of fish 
that were not barged. This information strongly contradicts any claims 
by environmental groups that the removal of the dams is necessary for 
fish to survive and that barging juvenile salmon through the dams is 
ineffective.
    It is time to eliminate dam removal from the discussion on the best 
way to support migrating fish. Studies have shown that adult fish have 
no problem passing through the dams at extremely high survival rates. 
Studies have also shown that the vast majority of juvenile fish 
migrating downstream are near the surface, so screens at the intakes of 
generators are positioned to direct them into bypass channels where 
they are collected for barge transport or bypassed back to the river. 
Weirs are in place on the spillways that allow for spilling water 
directly from the surface, thus providing another effective bypass for 
juvenile fish traveling downstream. It is the existence of these 
spillway weirs that make any additional spilling unnecessary and, in 
fact, can have an adverse affect on fish due to the increase in 
dissolved gases that result when spilling from bays that don't have the 
spillway weir. Fish passage plans are in place at each facility and 
overseen by federal and state biologists to assure that hydro plants 
are operated in criteria most advantageous to fish passage.
    ``The utter disappearance of the salmon fishery of the Columbia is 
only a question of a few years.'' That prediction was made by Hollister 
McQuire, Oregon Fish and Game Protector in '94. What makes this quote 
newsworthy is that it was made in 1894, long before the first dam was 
constructed on the Columbia-Snake River system. The decline of Columbia 
River salmon began in the 1800's and was originally attributed to two 
factors: over fishing and environmental degradation from such human 
activities as mining and logging. Millions of dollars have been spent 
during the last couple of decades studying the problem and millions 
more have been spent on making hydroelectric facilities as fish 
friendly as possible, even though studies have shown very little 
difference, if at all, between the decline of salmon runs on rivers 
with and without dams. Too much blame has been placed on the dams when 
it is obvious that no single factor caused the salmon decline. And no 
single factor will solve the problem. Solutions must look at all 
factors impacting salmon decline, including dam operations, fish 
harvest levels, hatchery practices, degradation of habitat where salmon 
lay their eggs and the impact of ocean conditions. R. Hilborn from the 
University of Washington was quoted as saying ``Any attempts to 
understand the impact of in-river action on survival will be confounded 
by changes in ocean conditions. The poor returns of Chinook salmon in 
the early 1990's are to a large extent almost certainly due to poor 
ocean survival, whether or not they encounter dams.'' My point here is 
that increasing and maintaining fish runs is a multifaceted problem 
that requires solutions to many different factors. Since studies have 
shown that the survival rate of migrating fish is the same on rivers 
with dams as they are without, the focus should be on ocean conditions 
and their impact rather than dam removal which would provide no 
benefit.
    The dams have been upgraded extensively at great cost and the 
improvements work. Dam operation now maximizes attraction water for 
adult fish and improves downstream migration due to flow augmentation 
that also serves to cool the reservoirs during low water months. 
Rotating screens at the turbine intakes direct fish to bypass channels 
where they are collected for barging or bypassed back to the river. And 
spillway weirs are strategically placed to provide a gentle ``slide'' 
for juvenile fish to travel downstream unharmed. Since removal of the 
dams would provide no benefit to fish survival, it makes absolutely no 
sense to continue studying a non-solution.
    A poll taken by Northwest voters indicate the people of the 
Northwest value clean, reliable, renewable, climate friendly 
hydropower. Key findings of the poll include that 88% of the poll's 
respondents view hydro as a renewable resource similar to wind and 
solar sources, 69% understood that wind is less reliable than hydro, 
75% recognize that hydro does not contribute to global warming and 79% 
support designation of hydro as a renewable resource by the U.S. 
Congress and state legislatures. Additionally, 71% agree that removing 
the lower Snake River dams would be an extreme solution, 65% believe 
that the billions planned to be spent to improve salmon runs is enough; 
removing dams is unnecessary and 75% are unwilling to further reduce 
electricity generated by hydropower to help salmon if it means fossil 
fuels replace the lost hydropower.
    In conclusion, the facts speak for themselves. Dam removal will not 
increase fish survival and would have a significant negative impact on 
our economy and environment by eliminating about 1,020 average 
megawatts of carbon-free energy, increasing greenhouse gasses by 4.4M 
tons/yr and reducing navigation capacity. H.R. 6247, by enacting 
funding prohibitions on dam removal ensures that the focus of salmon 
and steelhead recovery is on actions that actually work and help fish.
    Thank you again for this opportunity to testify before the 
committee.
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Heffling. I 
appreciate your testimony.
    And now I recognize Mr. Jim Sanders, who is General Manager 
of the Benton County PUD. Jim.

 STATEMENT OF JAMES W. SANDERS, GENERAL MANAGER, BENTON COUNTY 
         PUBLIC UTILITY DISTRICT, KENNEWICK, WASHINGTON

    Mr. Sanders. Good morning, Chairman Hastings and 
Representative McClintock. Welcome to the tri-cities.
    My name is Jim Sanders. I am the General Manager of Benton 
PUD across the river here. We serve some 48,000 customers in 
Benton County, and over 70 percent of our power comes from 
hydro. We are a Bonneville Power Administration customer.
    The topic of this hearing is very important to Benton PUD 
and our customers. As has been mentioned, I want to thank you, 
Congressman Hastings, for your persistent work on the issues 
that continue to plague our important hydro system. In 1999 you 
were on that bridge with a lot of us freezing our butts off, 
but it was good. You know, it is hard to believe that we still 
have to defend the economic and environmental benefits of the 
dams, but that is why we are here.
    Federal regulations, administrative decisions, and court 
orders all threaten hydropower. The proposed act addresses 
these concerns in several ways, including specifying hydro as a 
renewable resource and prohibiting funding to agencies that 
seek to remove or study the removal of hydropower-producing 
dams without clear authorization or congressional approval.
    The bill helps by limiting the endless litigation, judicial 
orders, proposed regulations, and arbitrary agency mandates 
that, in the end, diminish the value of hydro.
    Hydropower provides many benefits to the Pacific Northwest. 
Hydro provides 90 percent of the region's renewable energy, can 
be called on to serve load at any time it is needed, and is 
less costly than any other form of generation.
    But there are challenges. When the idea of breaching dams 
was introduced, there were few, if any, renewable resources 
such as wind connected to the Northwest electric system. Today, 
BPA's system alone has over 4,700 megawatts of wind connected. 
Wind turbines produce electricity about a third of the time 
because, on average, the wind only blows adequately a third of 
the time. And generally during the hottest times and coldest 
times of the year, when demand for electricity is highest, the 
air is dead calm.
    As we continue to diversify the electric power supply in 
the region by adding these variable resources, the capability 
of the hydro system is needed even more than ever to firm up 
the output of these resources and help maintain the reliability 
of our electric system.
    Hydro is a flexible renewable power source that can be used 
any time to firm up other renewable energy sources. You know, 
it does not get any greener and cleaner than that. If the dams 
are removed, wind energy will still need to be backed up and 
that resource would be fueled by natural gas. That would cause 
an increase in the greenhouse gas produced in the Pacific 
Northwest.
    Hydro and wind can be a partner, but from time to time, 
there are conflicts. When there is too much power from both 
resources, wind developers want first rights to delivery to 
ensure their tax credits. And at a State level, because of the 
mandates of the Energy Independence Act, utilities, including 
Benton PUD, have to purchase wind to meet the requirements of 
that law even though they have enough hydropower to meet 
customers' needs.
    We appreciate that the bill addresses Energy Secretary 
Steven Chu's memorandum that proposed more renewables and more 
conservation. The bill prohibits Federal funding for these new 
activities and mandates for BPA until an agency report is 
completed to justify and Congress authorizes the new 
activities.
    In addition, H.R. 6247 rightly addresses transparency on 
costs related to Federal environmental laws and regulations, 
specifically fish and wildlife.
    The comprehensive plan for fish mitigation has proven 
itself over the years. High fish returns today are due to 
installations of new technology, modified operations, and 
improved habitat.
    But all this comes at a cost. Since 1978, utility customers 
in the Northwest have funded more than $12 billion on fish and 
wildlife mitigation actions for the impacts of the Federal 
dams. This last year alone, programs for fish have cost Benton 
PUD customers nearly $18 million through our wholesale power 
rates. It costs our residential customers about $200 a year and 
our large irrigators hundreds of thousands of dollars.
    The provisions of H.R. 6247 address issues that are 
important to our overall quality of life. We have taken on the 
obligation for new renewable resources and we continue to meet 
fish and wildlife obligations. But we have to be careful that 
the growing costs of these often conflicting obligations don't 
jeopardize our economy or compromise the system's reliability.
    Thank you for the opportunity.
    [The prepared statement of Mr. Sanders follows:]

          Statement of James (Jim) Sanders, General Manager, 
                   Benton PUD, Kennewick, Washington

    Good morning Chairman Hastings and members of the committee. My 
name is Jim Sanders and I am the general manager for Benton PUD. Our 
public utility district serves 48,000 customers in the Benton County 
area with over 70 percent of our power coming from hydro. The topic of 
this hearing is very important to Benton PUD and our customers.
    First, I want to thank you--Congressman Hastings--for your tenacity 
and persistent work on the issues that continue to plague our important 
hydro system.
    In 1999, you joined our community at a `Save Our Dams' rally on the 
bridge over the Columbia River to highlight the many benefits of the 
dams. Thirteen years later, we are still defending the dams and all of 
the benefits they bring to the region.
    Today, we are here to discuss the new bill--``The Saving Our Dams 
and Hydropower Development and Jobs Act'' which will protect existing 
hydro resources and enhance the ability to pursue new hydropower 
development.
    At times it is hard to believe that we have to defend the economic 
and environmental benefits of the dams--but we do. Hydropower is 
getting squandered away through federal regulations, administrative 
decisions and court orders. The proposed act addresses these concerns 
in several ways including the specification of hydro as a renewable 
resource and prohibiting funding to agencies that seek to remove or 
study the removal of hydropower producing dams without clear 
authorization or congressional consent.
    Some clear facts about hydro power and our dams that we cannot let 
others forget--
        Hydro electricity is the original northwest renewable 
        resource--it's fueled by water. It produces no carbon emission 
        making the Northwest carbon foot print half of other parts of 
        the country.

        Northwest dams produce nearly 60 percent of the region's 
        electricity and 90 percent of the region's renewable energy. 
        The federal dams produce about 14,000 average megawatts of 
        electricity every year under normal precipitation--that is 
        equivalent to powering over 11 cities the size of Seattle on an 
        average year. The four dams on the Snake River alone generate 
        enough power to serve one city about the size of Seattle.

        The power produced by the dams is dispatchable, that is, it can 
        be called on to serve load at anytime it is needed.

        The Northwest has some of the lowest electricity rates in the 
        country, thanks to low cost hydro. While regulatory costs 
        placed on hydro are increasing, its base cost of production is 
        significantly less than nuclear, coal, natural gas, wind, and 
        solar.
    The list of the benefits of the hydro system is long, but so is the 
list of its challenges. This bill will help shine a light on the 
challenges and limit some of the endless litigation, judicial orders, 
proposed regulations and arbitrary agency mandates that, in the end, 
diminish the value of hydropower.
    Our customers expect, and rightly so, that their electric service 
will be reliable, and will be there when they need it at a price they 
can afford. Much has changed since the ``Save Our Dams'' rally. When 
the idea of breaching dams was introduced, there were few, if any, 
variable renewable resources such as wind connected to the northwest 
electric system.
    Today, Bonneville Power Administration's (BPA) system alone has 
over 4,700 megawatts of wind connected and expects to have 5,000 
megawatts of this variable resource connected to its system by 2013. 
Power from the dams provides the means to firm up the output of these 
variable resources while maintaining reliability of the electric 
system. As we continue to diversify the electric resources in the 
region by adding other renewables, the hydro system is needed even more 
than ever before to help maintain the reliability of our electric 
system.
    Wind turbines in the Pacific Northwest have an availability factor 
of around 33 percent. That is, they produce electricity a third of the 
time because on average the wind only blows adequately a third of the 
time. Put another way, wind generation will not produce electricity 
two-thirds of the time. And generally during the hottest or coldest 
times of the year, when demand for electricity is highest, the air is 
dead calm.
    The power produced at the dams is a flexible resource with an 
availability factor of 100 percent. The power is available to serve 
loads that are constantly changing any time of the year.
    Hydro is a renewable power source that can be used to firm up other 
renewable energy sources. It doesn't get any greener and cleaner than 
that. If the dams are removed, wind energy will still need to be backed 
up by a firm resource. Today that resource would be fueled by natural 
gas. Removing the dams and firming wind with natural gas resources will 
cause an increase in the amount of greenhouse gas produced in the 
Pacific Northwest.
    Hydro and wind can be a partner but sometimes there are conflicts. 
When there is too much power from both resources, wind developers want 
first rights to delivery to ensure their tax credits. And at the state 
level, because of the mandates of the Energy Independence Act 
(Initiative 937), utilities, including Benton PUD, have to purchase 
wind to meet the requirements of the law even if they have enough 
hydropower to meet customers' need.
    The cost of various new and unnecessary proposals involving 
conservation and more renewables proposed in Energy Secretary Steven 
Chu's memorandum in March will be paid for by our customers. We 
appreciate that the bill addresses this and prohibits federal funding 
for new activities and mandates for Power Marketing Administrations 
such as BPA until an agency report is completed to justify such 
activities and Congress authorizes the new activities. The response by 
Congress and the power marketing agency customers to Secretary Chu's 
memo has been refreshingly unified. Public Power Council (PPC), and 
Northwest Public Power Association (NWPPA) are carrying the message 
about our concerns with Secretary Chu's memo as it relates to BPA 
customers.
    In addition, the bill before us, H.R. 6247, rightly addresses 
transparency on costs related federal environmental laws and 
regulations, specifically fish and wildlife.
    It is frustrating we are still defending the Biological Opinion in 
the court system. The comprehensive plan for fish protection, 
mitigation and enhancement has proven itself over the years. New fish 
protection technologies have been installed, operations have been 
modified, and habitat improvements have been made--all adding to the 
success of fish returns.
    But this comes at a cost. Since 1978, utility customers in the 
Northwest have funded more than $12 billion on fish and wildlife 
mitigation actions for the impacts of the federal dams in the Columbia 
River Basin. This last year alone, programs for fish have cost Benton 
PUD customers nearly $18 million through our wholesale power rates. 
That means about 18% of an average residential customer bill goes to 
fish and wildlife programs. Our customers are able to determine the 
impact of the fish costs on their power bill by using a calculator on 
our website. Most of our customers will find that fish programs are 
costing them about $200 per year.
    I appreciate that the bill also limits and/or prohibits federal 
funding to non-governmental organizations that have engaged, or are 
currently engaged, in dam removal or hydropower decreasing litigation 
against the federal government.
    The provisions of H.R. 6247 are important to the overall quality of 
life we enjoy in the Pacific Northwest. We have taken on the obligation 
for the development and integration of new renewable resources and we 
continue to meet fish and wildlife obligations. We have to be careful 
that these growing costs associated with meeting these obligations 
don't jeopardize our overall economy, and that the growing mandates 
don't compromise the reliable operation of the system. There is an 
inherent conflict with operating hydro to integrate wind and operating 
hydro to meet fish obligations, while at the same time serving our 
customers reliable, affordable power. We are glad to see legislation 
that is trying to help resolve some of the many challenges facing our 
hydropower system.
    Thank you for the opportunity to testify today. I am available for 
any questions.
                                 ______
                                 
    The Chairman. Thank you very much for your testimony.
    And now I am pleased to recognize Mr. Glen Spain, the 
Northwest Regional Director of the Pacific Coast Federation of 
Fishermen's Association out of Eugene, Oregon. Mr. Spain, you 
are recognized for 5 minutes.

 STATEMENT OF GLEN H. SPAIN, NORTHWEST REGIONAL DIRECTOR, THE 
 PACIFIC COAST FEDERATION OF FISHERMEN'S ASSOCIATIONS (PCFFA), 
                         EUGENE, OREGON

    Mr. Spain. Thank you, Mr. Chair, Mr. McClintock. Thanks for 
the opportunity to testify.
    I am going to put this in a bit of a different perspective. 
We are coastal folks. We are coastal fishermen. PCFFA is the 
largest organization of commercial fishing families on the west 
coast. And why we care about what goes on in the Columbia 
should be obvious, but for those who are not aware of it, about 
58 percent of the salmon harvested as far north as Southeast 
Alaska come from the Columbia. Columbia fish also migrate far 
down south into California and the status, the health of the 
Columbia River stocks determines in many years whether we fish 
or do not fish, and that means whether we have jobs or do not 
have jobs. So it is of vital importance.
    But I want to put this in a bigger perspective rather than 
talk about the Columbia River dams. There is a much bigger 
story here because your bill will--and we share, by the way, 
your desire to encourage hydropower development. It is, 
generally speaking, a low emissions power. We are very much 
concerned about that kind of issue.
    There are some problems with the bill, however, and I have 
gone into some of those problems in my written testimony. I 
won't burden you with that now. It is in my written testimony.
    But to put this in some perspective--since your bill will 
have national implications, it is applicable nationwide in many 
of its provisions. If you look at the number of dams--I 
appreciate the reference to common sense. Right now, as we 
speak, there are about 84,000 dams in the Corps of Engineers' 
dam inventory nationwide. Of those, some 5 percent, some 4,400 
of them have been declared as safety hazards. They have been 
essentially condemned by State and Federal dam safety engineers 
because they are obsolete and are public safety hazards. The 
task force called the Task Committee of the Association of 
State Dam Safety Officials in a report cited in my written 
testimony estimated that there are now or just in the past few 
years there were 566 major dam incidents that could lead to 
failure. That is decrepit infrastructure. Keep in mind that 
84,000 dams is one dam for every day since the signing of the 
Declaration of Independence and a few left over. That is a lot 
of dams. It is a big, major national infrastructure problem.
    The Committee on Safety Engineers estimated that the total 
cost to the Nation of repairing and upgrading just that 5 
percent of aging dams is more than $51 billion. To deal with 
the most critical ones, the ones that may fail--there have been 
many failures in the past few years, 132 dam failures that risk 
public health and public safety. The cost to repair and upgrade 
just the ones that may fail in the next 12 years is $16 
billion. The States do not have that money. Many of those dams 
are abandoned. Many of them cannot be rehabilitated. The effort 
to prevent either State officials or private owners from 
retrofitting or removing, when necessary, those dams is not 
good public policy. There are a number of those dams, including 
a number of hydropower dams, that are simply no longer cost-
effective.
    The Klamath is a good example. Mr. McClintock raised it, so 
I will address that. Here you have four dams that produce on 
average only about 82 megawatts. I drove up the Columbia Gorge. 
The wind project there is slated for 1,000 turbines. It would 
take 50 of those turbines and only 50 of those turbines to 
fully replace all the power that the four dams in the Klamath 
combined generate. That one wind farm will be 20 times that 
amount of power.
    The dams in the Klamath are estimated by FERC--and FERC 
does know a few things about dams--to need to operate at a $20 
million a year loss if they are relicensed. In addition, it 
will cost about $500 million to retrofit them. If you do those 
numbers, it means that relicensing those dams costs seven and a 
half times more than their removal. That is not cost-effective.
    That is not true of every dam. Every dam must be considered 
on its own merits. Every single one was a constructed project. 
They are built for a specific lifespan. Beyond that lifespan, 
they become safety hazards.
    So one of the things that I would urge you to do is look at 
addressing those issues. There is a bill that would cost-
effectively deal with and help develop more hydropower. That is 
the Rodgers-McMorris bill that is 5892, as you know. And it 
passed in the House with not a single dissenting vote. That may 
be the only bill this session that passed with no ``No'' votes. 
That is in the Senate now for consideration and it is something 
we would back as well.
    [The prepared statement of Mr. Spain follows:]

             Statement of Glen H. Spain, on Behalf of the 
      Pacific Coast Federation of Fishermen's Associations (PCFFA)

    Thank you for the opportunity to testify. I am the Northwest 
Regional Director for the Pacific Coast Federation of Fishermen's 
Associations (PCFFA), which is the largest trade organization of 
commercial fishing families in the western U.S. PCFFA represents 
thousands of working men and women in the U.S. Pacific commercial 
fishing industry, and has member fishermen's associations and 
individual members in every seaport from San Diego to Alaska.
    Commercial fishing is a major U.S. industry, generating billions of 
dollars annually to this region's economy, and supporting hundreds of 
thousands of family-wage jobs in this region as well as providing high 
quality seafood for America's tables and for export.
    In Washington State alone, our seafood industry supports more than 
58,000 family-wage jobs--and more than 1,000,000 family-wage jobs 
nationwide. Salmon fishing is one of the most important components of 
our commercial fishing industry, generating more than $369 million/year 
in direct landings sales at the docks, which in turn supports more than 
$1.25 billion in related economic impacts to this region's economy (see 
Fisheries Economics of the United States, 2009, available on the 
Internet at: www.st.nmfs.noaa.gov/st5/publication/
fisheries_economics_2009.html).
    The valuable Pacific salmon fishery--and tens of thousands of jobs 
in our industry--is also greatly influenced by the health of the 
remaining salmon stocks in the Columbia River, which even greatly 
diminished from its historic productivity (originally with runs of 
between 10 to 30 million salmonids/year) still remains the single most 
productive salmon-producing river in the lower 48 states. Even so, 
current salmon numbers today are only at best about 10 percent of what 
a restored Columbia River could potentially generate. More than 50 
percent of that productive potential lies in the Snake River, the 
Columbia's largest tributary.
    Columbia River salmon abundances influence harvest allocations all 
the way from central California to well into Alaska. In fact, 
approximately 58 percent of all salmon harvested commercially in 
Southeast Alaska come originally from the Columbia. This is why the 
health of the Columbia salmon stocks is so important to our industry--
it's all about jobs!
    Severe salmon run declines in the Columbia over the past several 
decades have had devastating impacts on the economies of many western 
states. In an economic study by the Institute for Fisheries Resources 
(The Cost of Doing Nothing: The Economic Burden of Salmon Declines in 
the Columbia River Basin (Oct. 1996)), that study concluded that up to 
$500 million/year in regional economic benefits are being lost each 
year from salmon declines in the Columbia Basin, together with 
approximately 25,000 lost family-wage jobs. (See: http://www.pcffa.org/
CDNReport-Columbia.pdf). The economic cost of the current highly 
depleted status quo on the Columbia is, in fact, huge.
    Our sister industry, the recreational fishing industry--which would 
also be negatively affected by many provisions of H.R. 6247 that deal 
with dams and hydropower development nationwide--itself amounts to a 
$125 billion industry nationwide supporting more than another 1 million 
jobs, according to the American Sportfishing Association (see http://
asafishing.org/facts-figures/sales-and-economics). That industry too, 
like the commercial salmon fishing industry and the jobs they both 
support, is almost entirely dependent on healthy rivers for its 
existence.
    This is particularly true for western U.S. salmon fishermen, who 
have suffered enormously from the loss of salmon habitat and the 
complete or nearly complete blocking of many of our most productive 
western U.S. salmon-bearing rivers by poorly thought-out dams, often 
built without fish passage, many of which are now outdate or 
functionally obsolete.
    Make no mistake, decades of gradually lost western states' salmon-
river productivity has meant tens of thousands of lost jobs for our 
industry, nearly bankrupted many coastal communities, and caused 
widespread economic and social disruption in many rural communities and 
towns. On the flip side, however, more recent river restoration 
efforts--including the removal of salmon-killing dams when those dams 
no longer are cost-effective to keep, or where they were foolishly 
located--are helping to restore many thousands of local fishing and 
river-related jobs, providing economic lifeblood to once-dying coastal 
fishing-dependent communities, and restoring many billions of dollars 
to the U.S. economy. In short, more salmon means more jobs and stronger 
economies throughout the coastal western states.
    While there are some aspects of H.R. 6247 to which we see no 
objection, there are many more provisions that are at best poor public 
policy, and at worst would create economic disasters and destroy 
thousands of jobs in our industry. I will discuss only the worst 
provisions in my short comments in Part 2 below, as well as try to put 
some of these worst provisions--those aimed at imposing scientific 
``gag-rules'' on federal agencies and categorically preventing dam 
removals regardless of the economic consequences--into some perspective 
in Part 1.

Part 1--Aging Dams as a National Infrastructure Disaster
    First off, to see why in many cases dam removal makes good sense, 
we should consider the current state of the nation's aging dams. There 
are, according to the U.S. Army Corps of Engineers' National Inventory 
of Dams, approximately 84,000 dams in the nation providing a range of 
benefits and built for a wide array of purposes. This is a staggering 
number--roughly one dam built in the U.S. for every day since the 
signing of the Declaration of Independence in 1776.
    Yet no dam can exist forever. All have engineered lifespans, after 
which their reservoirs silt up, their concrete structures crack and 
deteriorate, and they can catastrophically fail--endangering the lives, 
property and natural resources (including drinking water supplies) of 
those who live far below and around them.
    An increasing number of the nation's 84,000 dams are now 
economically obsolete, many are near or past their engineered lifespan, 
and quite a few no longer function to provide the benefits they were 
intended to produce. According to a January 2009 report by the Task 
Committee of the Association of State Dam Safety Officials, The Cost of 
Rehabilitating Our Nation's Dams, over 4,400 of these 84,000 dams are 
now considered to be physically unsafe by state dam safety inspectors. 
From 2005 to 2008, their report notes, the states reported 566 dam 
incidents, including 132 dam failures--and that number is likely under-
reported. The nation's dam failure rate is also expected to accelerate. 
That report is available at: http://www.damsafety.org/media/Documents/
DownloadableDocuments/RehabilitationCosts2009.pdf. That report also 
noted that:
        ``Without proper maintenance, repairs, and rehabilitation, a 
        dam may become unable to serve its intended purpose and could 
        be at risk for failure. State and federal dam inspection 
        programs can identify deficiencies in dams, but inspections 
        alone will not address safety concern posed by inadequately 
        maintained or outdated dams. For most dam owners, finding the 
        funds to finance needed repairs or upgrades is nearly 
        impossible. The lack of reliable funding to resolve dam safety 
        issue poses a threat to public safety nationwide.''
That important study also concluded that the cost of rehabilitation up 
to current safety standards of just the nation's non-federally owned 
dams would be $51.46 billion. To address just the most critical of 
these dams over the next 12 years, the cost was estimated to be at 
least $16 billion.
    Congressional efforts to help provide those funds, the study noted, 
have been few and paltry compared to the urgent need. The report also 
notes that, at least at the time written, there was only one federal 
program available for rehabilitation of non-federally owned dams (the 
Watershed Rehabilitation Act of 2000 (P.L. 106-472, Sec. 313)), and its 
funding was orders of magnitude smaller than what is actually going to 
be required.
    In short, an increasing number of the nation's dam are aging, 
increasingly obsolete, and becoming an infrastructure nightmare with 
serious repercussions for the nation's public health and safety. In 
this light, Congress should be encouraging private industry efforts to 
remove obsolete dams, not inhibiting it as H.R. 6247 attempts to do.
    While only a small fraction of the nation's approximately 84,000 
dams were designed to generate hydropower, this logic applies across 
the board. FERC currently carries 3,036 licensed hydropower dams in its 
safety inspection program, with about two-thirds of those dams more 
than 50 years old. Some older power dams are candidates for removal 
because they can no longer be operated cost-effectively--or are doomed 
to near-term catastrophic failure unless ultimately removed. To put 
things in perspective, it's worth noting that FERC has licensed 20,441 
MW of hydroelectric capacity since 1986, yet only 222 MW (about 1% of 
total licensed capacity) are current FERC candidates for 
decommissioning. Those few dams that are candidates for decommissioning 
are, however, on that list for very good reasons.

Each Dam Removal Proposal Must Be Judged on its Merits
    It is just as illogical to say ``all dams are good'' and should be 
kept as they are, as to say ``all dams are bad'' and should be removed. 
The fact is, each dam was designed and constructed to provide certain 
public benefits and engineered only to last for a specific life span. 
No dam can last forever--eventually it will either come down by human 
design or catastrophic failure.
    Dams also have a serious economic downside: they can block valuable 
rivers, destroying other valuable natural resource industries 
(including commercial or recreational fisheries), which in turn 
destroys jobs, and can have devastating impacts on water quality and 
disrupt natural hydrological flows that cause other societal problems 
such as greatly increasing the costs of providing clean drinking water 
to communities downstream.
    Any rational analysis must therefore conclude that dams that no 
longer provide sufficient public benefits to justify their existence, 
or which are reaching the end of their engineered life-span and 
becoming safety hazards, or which are creating other problems for 
society (such as destroying valuable fisheries) which push their 
economic value to society into the negative, are potential candidates 
for removal. Thus each dam removal project must be evaluated and judged 
on its own merits, always on a case-by-case basis.
    According to American Rivers, at least 925 dams have been removed 
over the past 100 years in this country. As more dams age, many more 
are becoming candidates for removal. Other dams can still be upgraded, 
their hydropower output improved with new technologies, and can remain 
in place longer--but always at an economic cost. If that cost to 
upgrade or retrofit a dam to modern relicensing standards surpasses or 
outweighs the economic value of any benefits that dam can provide, then 
that dam becomes economically obsolete, and it should be considered for 
removal. But again, this is a case-by-case judgment that must be made 
for each dam.

Hydropower Dam Removals That Make Economic Sense
    The Condit Dam: The Condit Hydroelectric Project is a privately 
owned 125-foot high dam located in south-central Washington on the 
White Salmon River in Klickitat and Skamania Counties. The project has 
a nameplate capacity of 13.7 MW, but generally provides less than that 
maximum amount. Constructed between 1911 and 1913 by the now defunct 
Northwestern Electric Company, PacifiCorp Electric Operations 
(PacifiCorp) acquired the project in 1947. A PacifiCorp fact sheet on 
Condit Dam is also available online at: www.pacificorp.com/content/dam/
pacificorp/doc/Energy_Sources/EnergyGeneration_FactSheets/3721-
20_GFS_Condit_v4.pdf.
    In short, this was a very old and largely obsolete dam, which 
generated very little total energy (only about 1/10th of 1% of 
PacifiCorp's total generation capacity of 10,597 MW) and was built 
(well before the advent of the current multi-state electrical grid) to 
serve local manufacturing plants that no longer exist. FERC relicensing 
of this very old project was clearly going to require major 
retrofitting to upgrade construction to meet current relicensing 
standards. Those relicensing costs, as it turned out, would likely far 
exceed the dam's economic value.
    In 1999, after two years of negotiations, a Settlement Agreement 
was reached between PacifiCorp and multiple agencies and stakeholder 
groups that provided a lower-cost way to remove the dam by simply 
allowing it to remain in operation for a period of years while still 
selling power and then using those revenues to pay into a ``dam removal 
fund'' to minimize cost impacts to company ratepayers. Condit dam was 
removed earlier in 2012.
    No federal funds were used for actual Condit dam removal, but 
because the Condit Dam removal affects multiple federal interests, 
including lands of the Yakama Tribe, the U.S. Department of Interior 
and several other federal agencies were involved in that Settlement in 
order to protect federal interests. The Settlement Agreement and 
related documents on the Condit Dam removal project are available on a 
PacifiCorp web site at: www.pacificorp.com/es/hydro/hl/condit.html.
    The Elwha and Glines Dams: Elwha Dam, completed in 1913, is a 108-
foot high concrete gravity dam located on the Elwha River in the 
Olympic Peninsula at river mile 4.9. It has no fish passage. A 
powerhouse contains four generating units with a combined generation 
capacity of only 14.8 MW.
    The companion Glines Canyon Dam, completed in 1927, is a 210-foot 
high single-arch concrete structure located at Elwha River mile 13. It 
also has no fish passage facilities. A powerhouse with one generator 
has a capacity of only 13.3 MW.
    Both dams sat illegally on federal lands within Olympic National 
Park. Both dams were originally constructed to provide electricity to a 
handful of then-isolated local saw mills--operations which either no 
longer exist or which can today draw much cheaper power from the multi-
state power grid, which did not exist when the dams were originally 
built. In short, these small--and now technologically obsolete--power 
dams have simply outlived their original purposes.
    Since their construction, however, the damage caused by the Elwha 
and Glines Canyon dams to public resources has been far-reaching. 
Salmon and steelhead populations have been considerably reduced. Only 
about 4,000 salmon now spawn in the 4.9 miles of river below Elwha Dam 
out of what were once some of the most valuable and abundant salmon 
runs in the State of Washington.
    In addition to decimating the river's valuable salmon runs, the 
dams also struck a long-term blow to the Lower Elwha Klallam Tribe 
which relied on the salmon and river for their physical, spiritual and 
cultural well-being. The Tribe considered the dams' existence to be a 
breach of the United States' federal Trustee responsibilities toward 
the Tribe--exposing the federal government to major potential legal 
liabilities for breach of that trust.
    The economic harm caused by these two dams has reverberated 
throughout the entire coastal Washington ecosystem. The dams and their 
associated reservoirs inundated and degraded over five miles of river 
and 684 acres of lowland and forest habitat, much of it federal lands. 
The river itself has been degraded through increased temperatures, 
reduced nutrients and reduced spawning gravels downstream. Multiple 
other animal species which depended on Elwha River salmon for their 
sustenance have greatly declined in numbers.
    In 1992, Congress passed Public Law 102-495, the Elwha River 
Ecosystems and Fisheries Restoration Act. That Act directed the 
Secretary of the Interior to study ways to fully restore the Elwha 
River ecosystem and native anadromous fisheries. Purchase and removal 
of these two dams was one of the considerations. The Elwha Report, 
submitted by the Secretary of the Interior, determined that removing 
the dams was both feasible and necessary to fully restore the fisheries 
and river.
    Removing both dams this year is re-opening over 70 miles of still 
pristine salmon habitat. With 83 percent of the Elwha watershed now 
protected within Olympic National Park, salmon have an especially high 
chance for recovery. A restored, free-flowing river is estimated to be 
able to produce approximately 390,000 salmon and steelhead annually 
within about 30 years, compared with less than 50,000 fish if the dams 
were fitted with expensive upstream and downstream fish passage 
facilities, which are much less effective than volitional passage.
    The November 1996 Final EIS found that significant economic 
benefits estimated at $164 million over the 100 years following dam 
removal will be realized through increased recreation, tourism, and 
sport fishing. Ultimately, the high costs of retrofitting and 
relicensing these dams, for a very small power benefit, and the major 
economic benefits from restored salmon and steelhead fisheries, all 
greatly outweighed the economic value of keeping these economically 
obsolete dams.
    Both were purchased by the federal government in 2000 and are now 
finally being removed this year--and salmon are already recolonizing 
newly opened areas on the Elwha River for the first time in nearly 100 
years. As these fish runs recolonize the Elwha and grow in abundance, 
they will re-establish many previously lost local and regional fishing 
jobs and help restore damaged local economies.
    The terribly slow pace of the Elwha-Glines dam removal process is 
also an object lesson in why all dam removals should not depend upon 
Congressional approvals, as H.R. 6247 seeks to require. The obviously 
necessary removal of these private dams, sitting illegally on federal 
lands, was actually formally approved by Congress back in 1992. 
However, it then took the federal government nearly 20 years to 
accomplish the dam removal components of that 1992 bill. The reason: 
funding was blocked for nearly 15 years because of Congressional 
political in-fighting that had nothing to do with the merits of this 
specific project.
    Why Klamath Dam Removal Also Makes Economic Sense: The four Klamath 
hydropower dams (Iron Gate, Copco 1 & 2 and the J.C. Boyle Dam), also 
owned by PacifiCorp, are also good examples of aging dams that are now 
technologically and economically obsolete. They also cause far too much 
damage and economic losses to lower river and coastal salmon industry 
jobs to justify their continued existence. The first of these four dams 
was built in 1918 and none of them have fish passage for salmon--a 
practice that is patently illegal today.
    The Klamath River is also economically important for salmon fishing 
industry jobs because it was historically the third largest salmon-
producing river in the lower 48 states, historically producing an 
average run of about 880,000 salmon and steelhead annually. Outside of 
Alaska, only the Columbia and Sacramento-San Joaquin river systems 
produced more salmon and steelhead. Today--in no small part due to the 
damage done by impassable dams--the Klamath chinook salmon runs average 
less than 15% of historic numbers, and in some years less than 4%.
    Because these four Klamath dams essentially cut the river in half, 
blocking access to most of the salmon's historic spawning grounds, and 
because of multiple other water quality and depleted spawning gravel 
impacts, in some years (such as 2006) the river's remaining 
productivity cannot even meet the minimum 35,000 ``spawner floor'' 
requirement deemed biologically necessary to have a fishery. In such 
years ``weak stocks'' in the Klamath close down whole chunks of the 
ocean commercial salmon fishery from Monterey, CA to well into 
Washington State in which they intermingle. In 2006 this type of ``weak 
stock'' closure cost California, Oregon and Washington more than $100 
million in direct economic losses--and required $64.2 million in 
emergency Congressional disaster assistance.
    Yet the reality is that all four Klamath dams combined do not 
generate all that much power. Although the whole Klamath Hydroelectric 
Project is technically rated for maximum power generation of about 169 
megawatts (MW) (about 1.6% of PacifiCorp's total generation capacity of 
10,597 MW), no dams can run at maximum capacity 24/7, especially during 
summers when turbine flows are lowest. The entire Klamath Hydroelectric 
Project combined actually generated only about 82 MW of power on 
average over the past 50 years, according to FERC records (see the 
November, 2007, FERC Klamath Final Environmental Impacts Statement 
(``FERC FEIS'') available online at: http://elibrary.ferc.gov/idmws/
File_list.asp?document_id=13555784 or found by a FERC docket search at 
www.ferc.gov, Docket No. P-2082-027, posted November 16, 2007, Document 
No. 20071116-4001). For comparison, a single modern electrical power 
plant can continuously generate 1,000 MW or more.
    The 1956 Federal Energy Regulatory Agency (FERC) 50-year license to 
operate the Klamath Hydropower Project expired in 2006. There are now 
only two legal options for these Klamath Hydropower Project dams, both 
of which will cost PacifiCorp ratepayers money. These options are to 
either: (1) update the dams and relicense them to modern safety and 
fish passage standards, which it turns out will cost at least $460 
million, and quite likely more than $500 million once all (currently 
unknown) water quality damage mitigation costs are added in, according 
to PacifiCorp testimony to the California and Oregon Public Utilities 
Commissions (PUCs); or (2) decommission and remove these aging dams 
entirely--which the company can now do far more cheaply under the 
recently signed Klamath Hydropower Settlement Agreement (KHSA) for a 
``capped'' cost to its customers of only $200 million.
    And according to cost-benefit estimates by FERC, even after all the 
expensive retrofitting to meet modern standards for relicensing, these 
dams would still then only be able to generate about 61 MW of power on 
average--about 26% less than they do today (FERC FEIS, Sec. 4.4, pg. 4-
4). Klamath dam relicensing thus means spending a great deal of money 
for what is actually very little power. In fact, FERC estimated in its 
2007 Final Environmental Impact Report (FEIS) on relicensing that even 
if fully relicensed, the required retrofitting would be so expensive 
that these dams would then have to operate at more than a $20 million/
year net loss (FERC FEIS (Nov. 2007), Table 4-3 on pg. 4-2).
    If you calculate the cost of FERC relicensing (at least $500 
million) and also accept the economic losses estimated by FERC of $20 
million/year for a new 50-year FERC license (a net economic loss of $1 
billion over 50 years) and add them together, then the probable costs 
of a new 50-year FERC license for the four Klamath dams to PacifiCorp's 
customers would be at least $1.5 BILLION. This relicensing cost is 7.5 
TIMES the ``capped'' costs of $200 million that PacifiCorp's customers 
will be obligated to pay for Klamath River four-dam removal under the 
current Klamath Hydroelectric Settlement Agreement (KHSA).
    In short, the full cost of FERC relicensing for these four aging 
and now economically obsolete dams would vastly exceed their remaining 
net economic value.
    These inescapable economic numbers are why, on May 5, 2011, the 
California Public Utilities Commission (CPUC) formally confirmed that 
the KHSA is indeed the most cost effective, least risky and therefore 
best alternative for PacifiCorp's customers as compared to FERC 
relicensing (CPUC Docket No. A10-03-015). A prior September 16, 2010, 
ruling by the Oregon PUC came to the same conclusion (OPUC Docket No. 
UE-219).
    In short, keeping the Klamath dams would mean extremely expensive 
fixes for a lot less power, and result in a project that would likely 
lose money for the rest of any new license--losses that customers would 
ultimately also have to make up for in even higher power rates. The 
``bottom line'' is that it's just a lot cheaper for customers to remove 
the four Klamath dams than to keep them.
    And this doesn't even begin to account for the likely economic and 
jobs-related benefits of a restored world-class Klamath salmon run, a 
more stable irrigation system and the many other economic benefits that 
will also come from other aspects of the Klamath Settlement. The best 
current estimate is that this dam removal project with its associated 
major watershed restoration efforts would nearly double the average 
salmon run size from the basin, stabilize an otherwise at-risk $750 
million farming and fishing local economy--and create 4,600 new farming 
and fishing jobs (see www.klamathrestoration.gov, Summary of Key 
Conclusions and EIR/EIS Economic Fact Sheet).
    The best current estimate for the total costs of decommissioning 
and full removal of the four dams, including various mitigation 
measures not available under the FERC process alone, is about $290 
million (i.e., most likely cost, in 2020 dollars), including various 
environmental mitigation measures (see Detailed Plan for Dam Removal--
Klamath River Dams (Sept. 15, 2011), Table ES-1, pg. 7, at 
www.klamathrestoration.gov). By implementing dam removal through the 
KHSA, PacifiCorp thus saves its customers at least another $90 million 
as well as reduces its own company and ratepayer risk and uncertainty. 
This is another good business reason the KHSA is a good deal for 
PacifiCorp customers.
    It should also be noted that in accordance with the KHSA, no 
federal money will be used for this Klamath dam removal process. Dam 
removal is to be financed under the KHSA solely through non-federal 
sources, with the first $200 million coming from PacifiCorp ratepayers. 
What little federal money has been used to analyze the Klamath dam 
removal proposal is because it will directly impact federal lands, and 
this analysis was required by NEPA.
    As to replacement power, Pacific Power is already legally committed 
to bringing more than 1,400 MW of brand new, cost-effective renewable 
power online by 2015 (see Final Order, Measure 41, in CPUC Docket A05-
07-010). This is 17 times more power than the four Klamath dams 
generate all together today. There are many options for the replacement 
of this power from comparable carbon-free or renewable sources by 2020.
    Summary of Part 1: Many hydropower dams still make economic sense, 
but in a growing number of instances it is dam removal that makes the 
most economic sense, is the only common sense option. In those 
instances it would be foolish indeed for Congress to try to force 
private companies (as in the case of PacifiCorp's Klamath dams) to 
retain economically unproductive assets to the detriment of their 
ratepayers and customers, as H.R. 6247 tries to do. It would be even 
more foolish for Congress to forbid restoration and mitigation efforts 
by federal agencies on federal lands that may incidentally occur from 
non-federal dam removals, as H.R. 6247 also tries to do.
    Not all dams are created equal. Many of the nation's dams today, 
including a growing number of the 3,036 major hydropower-producing 
dams, simply no longer make economic sense. Many of these aging dams 
use old technologies and are thus functionally obsolete; some are 
orphaned or now abandoned; and others would be cost-prohibitive to 
retrofit or rehabilitate, and so are economically obsolete. But if left 
in place they will ultimately fail catastrophically.
    The only sensible option in such cases is simply to remove those 
obsolete dams entirely and replace their renewable power through more 
cost-effective (i.e., cheaper) sources from nearly anywhere else in the 
nation's vast power grid.

Part 2--Major Problems with H.R. 6247
    Sec. 7--Automatic Congressional Preapprovals of Unknown Future 
Federal Water Storage Projects. This provision is clearly a ``Trojan 
horse'' that provides a pre-approved, ``blank check'' of Congressional 
approval of unknown future federal ``projects'' regardless of any and 
all environmental laws, and regardless of whether these projects even 
make economic sense. Such a ``blank check'' provision allows federal 
bureaucrats far too much power to rubber stamp and approve dubious new 
federal projects without NEPA analysis, Clean Water Act clearances, 
public scrutiny or any other of the many checks and balances 
traditionally provided to protect taxpayers from oppressive government 
bureaucracies and boondoggle construction projects.
    Even if no federal funds are used for financing, constructing, or 
operating such future hypothetical federal projects, they still remain 
federal projects, and should not be ``pre-approved'' sight unseen 
without public debate or federal oversight. This would simply be bad 
public policy. Also, there is no reference in this blanket exemption to 
there being non-federal funding for repairs and maintenance costs of 
any such project--so presumably the federal taxpayer would still be on 
the hook for those costs.
    There is clearly a need for more water storage in many places in 
the arid West. But future reservoir projects should be planned 
systematically and thoughtfully, on a case-by-case basis and with ample 
opportunity for public involvement and discussion. Blanket 
Congressional pre-approvals of such projects forever in the future, 
sight unseen, and regardless of their details and prior to any real 
NEPA or cost-benefit analysis, is bad public policy and will lead to 
bad government decisions.
    Sec. 8--Prohibiting So-called ``Harmful Spills'' at Federal Dams. 
This section is clearly aimed at ending the Court-order practice of 
``spilling'' water through the Columbia River federal power dams' 
spillways in order to prevent endangered juvenile salmon from having to 
go through their turbines, where many are killed.
    In fact, this ``spill'' program has proven to be far more 
successful at increasing overall salmon survival through the Columbia 
River dams than anyone predicted. (See: Comparative Survival Study 
(CSS) of PIT-tagged Spring/Summer Chinook and Summer Steelhead (2011 
Annual Report, prepared by the Fish Passage Center and Comparative 
Survival Study Oversight Committee, available at: www.fpc.org/
documents/CSS/2011%20CSS%20Annual%20Report--Final.pdf; see also: Fish 
Passage Center Memorandum of July 14, 2011, Benefits of spill for 
juvenile fish passage at hydroelectric projects, at: http://fpc.org/
documents/memos/102-11.pdf).
    Ending this important, and now proven effective, mitigation 
practice just throws one of our best salmon mitigation tools out the 
window. This just promotes more mitigation failures and puts that much 
more pressure on the other aspects of the Columbia River hydropower 
system to provide equivalent survival benefits they cannot provide. 
This provision is clearly bad for salmon and salmon jobs.
    Drought also has nothing to do with spills within the Columbia 
Power System. The eight federal power dams on the Columbia and Snake 
Rivers are all ``run of the river'' dams, and so neither upstream nor 
downstream flows are changed in any way by whether or not flows at the 
dams run through the turbines or through the spillways--it is the same 
volume of water, just flowing through different gates. In fact, 
Columbia dam spills are more important to maintain during dry years 
than ever. The last time spill was cut off due to low-water conditions 
in the Columbia was in 2001 and it devastated Columbia Basin salmon 
returns, and salmon-dependent fishing communities, for the next several 
years.
    There is always some impact on salmon caused by spills, such as the 
potential for gas bubble trauma (GBT) from supersaturation of nitrogen 
in the spillways. But Sec. 8 could prohibit spill even if spill is by 
far less harmful than forcing young salmon through the turbines. This 
is in fact what the science shows. There is no effort in this provision 
whatsoever to balance relative risks of harm, nor to acknowledge the 
science--only to categorically shut down spill and thereby throw out a 
major dam impacts mitigation tool that has been proven to improve 
salmon survival and has resulted in higher salmon returns. Moreover, 
the region currently has the tools and means to shut off or to reduce 
spill when and if necessary to truly protect salmon. At present, 
however, the science says that salmon could use more spill not less.
    In a massive government overreach, Sec. 8 also apparently gives any 
federal agency anywhere veto power over whether or not water is spilled 
at any dam anywhere for any (or no) reason. This could jeopardize dam 
spill mitigation programs all over the country, putting vast portions 
of our inland recreational fisheries--and many thousands of fisheries 
jobs--at risk.
    Sec. 10--Halting Funding of BPA Modernization. This provision 
attacks several proposals and programs described in a recent Secretary 
of Energy Chu memo that, if implemented, would help the nation's PMAs, 
including BPA, to accelerate and expand energy efficiency and 
integration of certain renewable energy resources such as wind power. 
Generally speaking, increasing the amount of energy efficiency and non-
hydro renewable energy in the Northwest provides BPA with additional 
flexibility in how it manages the federal hydro system. With a more 
diverse renewable energy portfolio and the deployment of new large-
scale efficiency initiatives, BPA could pursue many operational changes 
at the federal dams that in turn aid salmon. Halting this modernization 
process will retard salmon recovery efforts and destroy many more 
salmon jobs.
    H.R. 6247 would essentially deep-six Secretary Chu's modernization 
efforts, or at least unnecessarily delay their implementation for 
years. Salmon wouldn't be the only thing to suffer as a result; one of 
the primary objectives of the Chu memo is to stimulate job creation in 
the clean energy economy--but by turning the nation's energy 
development clock back to approximately 1950, H.R. 6247 would stand 
squarely in the path of these new clean energy jobs and the much needed 
new economic activity they'd bring to the Northwest and beyond.
    Secs. 11, 12, 13 and 14--New Prohibitions on and Barriers to 
Necessary Dam Removals. These provisions are entirely punitive, among 
other things imposing a ``scientific gag-rule'' (Sec. 11) preventing 
federal agencies from studying, analyzing--and by implication even 
commenting with any knowledge about--future hydropower dam removal 
projects, federal or non-federal. All this does is to force agencies to 
ignore the science and institutionalizes government-mandated ignorance. 
Imposing ignorance and forbidding informed input on government 
decisions is the worst of bad public policy. This provision also runs 
counter to several other sections of law, including NEPA, requiring the 
agencies to conduct such studies when such projects could potentially 
affect federal resources.
    Many rural dams sit on, near or can affect nearby federal lands. 
Sec. 12 prohibitions against the federal government spending money to 
help mitigate the impacts of dam removals on federal lands also means 
that federal lands that are affected by nearby non-federal dam removals 
will just have to sit there forever as damaged--without any possible 
restoration efforts by federal agencies. Such public resources will 
simply be wasted. When those public resources include rivers that 
support valuable fisheries this prohibition will also help kill 
fisheries jobs nationwide.
    Sec. 13's prohibitions cutting off even completely unrelated 
federal funds to any NGO which, for instance, intervenes in FERC dam 
relicensing proceedings (a form of litigation) or other litigation that 
``would negatively impact the generation of hydropower'' in any way--by 
even the smallest amount--are merely petty attempts to Congressionally 
punish organizations for their exercise of First Amendment free speech 
rights to comment on public issues, and punishes related efforts to 
protect public resources and utility customers from boondoggle federal 
projects. It also smacks of the grossest form of government coercion 
and overreach.
    Furthermore, this provision would prevent communities all around 
the U.S. from taking appropriate and necessary steps to ensure public 
safety and safeguard public resources. This provision would eliminate a 
multitude of highly successful river restoration programs currently 
conducted through federal-NGO river restoration community partnerships. 
None of these prohibitions make any rational sense, and are terrible 
public policy.
    And finally, apparently in a misguided effort to expedite more 
hydropower development, Sec. 14 would simply strip the fish and 
wildlife Trustee agencies (USFWS and NMFS) of their long-standing 
Federal Power Act Section 4(e) conditioning authority over future FERC 
licenses, leaving it solely to FERC--and not the Trustee agencies who 
actually have the expertise over such matters--to make final decisions 
on how best to protect the nation's valuable fish and wildlife 
resources from potentially negative impacts of power dams. Turning 
America's multi-use and economically vital rivers into single-use 
industrial conduits for hydropower alone is terrible public policy. It 
is hard to imagine a faster way to kill all other major river-dependent 
industries and the millions of jobs they support.
    Since the passage of the Federal Energy Policy Act of 2005, Pub. L. 
No. 109-58, Sec. 241, 119 Stat. 594 (2005), hydropower applicants have 
already had numerous special opportunities to present less costly 
alternative mitigation measures to offered agency conditions for 
adoption by FERC, complete with special quasi-judicial hearing rights. 
None of the extra bureaucracy introduced by Sec. 14 into the FERC 
process is in any way necessary.
    If Congress wishes to truly expedite new low-impact hydropower 
projects, it already has before it the McMorris Rodgers' Hydropower 
Regulatory Efficiency Act (H.R. 5892) which passed the House on 7/9/12. 
Not one dissenting vote was cast against this bi-partisan bill. That is 
the sort of bi-partisan and collaborative initiative that would make 
much more sense than the largely punitive and misdirected provisions of 
H.R. 6247.
                                 ______
                                 
    The Chairman. Thank you very much for your testimony.
    And now I recognize Ms. Rebecca Miles from Lapwai, Idaho. 
Ms. Miles, you are recognized for 5 minutes.

          STATEMENT OF REBECCA A. MILES, LAPWAI, IDAHO

    Ms. Miles. Thank you, Mr. Chair. Just briefly to introduce 
myself, I am a member and a citizen of the Nez Perce Tribe, and 
I also have brought with me my son, Ivory Miles Williams, who 
has become the fisherman in my home, as well as my other son, 
Tommy Miles Williams. I was born and raised in Lapwai and I am 
a seventh generation direct descendant of Old Chief Looking 
Glass, Apash Wyakaikt, who came into the treaty grounds in 1855 
to break up the negotiations and guarantee that our people 
would have a right to fish in all our usual and accustomed 
places.
    Thank you very much, Mr. Chair, for this opportunity to 
testify, and I am testifying before you as a proud citizen of 
the United States and the Nez Perce Tribe in opposition to H.R. 
6247.
    Both the United States and the Nez Perce Tribe have 
grounded their governance on core principles, such as making 
decisions that reflect the needs of future generations, keeping 
promises, looking before we leap, taking responsibility for the 
consequences of our actions, and evaluating all information 
before rushing to judgment.
    During my years serving as a member of the Nez Perce Tribal 
Executive Committee and its former chair--that is the governing 
body of the Nez Perce Tribe--and now serving in the capacity as 
the Executive Director, I have had the privilege of witnessing 
both the United States and the tribe employing these principles 
in making decisions and citing policies. Simply put, H.R. 6247 
runs directly counter to all these hallmarks of good 
governance.
    I want to emphasize that my remarks today are my personal 
comments. I am not before you as a representative of the Nez 
Perce Tribe. I have been recognized as having an influential 
voice and one who shares a very similar approach to my good 
friend, Senator Mike Crapo, of having a collaborative approach, 
one that he asked for in 2011 again.
    Indeed, the tribe was not invited to testify today. I feel 
this has been disrespectful to all the work the tribe has 
engaged in to make the Snake and Columbia River system work for 
fish and our local communities. I cannot help but conclude this 
also serves to highlight the type of flawed approach to 
governance that this bill represents.
    My people, the Nez Perce, have a long history of protecting 
the interests of generations. The Nez Perce at one time were 
the largest Columbia River plateau tribe and one of the most 
influential and powerful. Our homeland consisted of 13 million 
acres. When I mentioned Old Chief Looking Glass, when he rode 
into the Walla Walla council to break up negotiations, that 
negotiation ended in the Nez Perce Tribe ceding 13 million 
acres to the United States--13 million acres to the United 
States--in exchange for a very simple right that was reserved, 
and that was to hunt, fish, and gather in all our usual and 
accustomed places.
    And central among the rights that the Nez Perce reserved, 
we also take part in our religious ceremonies that were 
reserved to be able to freely do. Dozens of churches and 
longhouses throughout the basin rely on the salmons' return for 
our connection with this land. Salmon are, obviously, and 
simply the lifeblood of my people, and we believe that the 
creator has bestowed upon us the duty to protect these 
creatures from harm, just as they are protected and fed us when 
the creator put man on this earth.
    Our salmon and our people bore the consequences of 
decisions to construct dams, such as the four dams on the lower 
Snake River. They have had devastating effects on our fish and 
our people. Every run of salmon and steelhead that returns up 
the Columbia and Snake River destined for the Nez Perce 
Reservation and our usual and accustomed fishing places in the 
Snake Basin is now either extinct or listed as endangered or 
threatened under the Endangered Species Act.
    Promises that could have the four lower Snake River dams 
and healthy, harvestable levels of salmon were made, that we 
could have both. Those promises, despite some good intentions, 
remain unfulfilled. Other promises that our local communities 
would be vibrant and self-sustaining as a result of having an 
inland seaport more than 400 miles from the ocean also remain 
unfilled.
    Given this backdrop, you might expect that the Nez Perce 
people simply demand that the United States honor their treaty 
and their promises and that they take responsibility for the 
impact of those dams that they have had on salmon and on us and 
do whatever it takes, regardless of what the impacts may be on 
our neighbors and our local communities.
    I am closing my comments, Mr. Chair.
    And yet, the tribe's support for breaching these lower 
Snake River dams has not stopped at what is best for fish and 
what it believes the best biology and best economics supports, 
once again referring to this collaborative approach.
    My tribe, the Nez Perce, one of the only tribes left on 
this system who haven't been silenced to advocate for the best 
science, is working to ensure that wild, naturally spawning 
runs--wild, naturally spawning runs--are rebuilt to healthy, 
harvestable levels and the conservation burden is fairly 
shared. The Nez Perce, as a fisheries co-manager, is actively 
engaged in managing the treaty fishery, improving passages for 
salmon throughout the mainstem Columbia.
    Thank you so much, Mr. Chair, for this opportunity to 
provide testimony.
    [The prepared statement of Ms. Miles follows:]

              Statement of Rebecca A. Miles, Lapwai, Idaho

    Thank you for the opportunity to testify today. I am testifying 
before you--as a proud citizen of both the United States and the Nez 
Perce Tribe--in opposition to H.R. 6247.
    Both the United States and the Nez Perce Tribe have grounded their 
governance on core principles, such as making decisions that reflect 
the needs of future generations; keeping promises; looking before we 
leap; taking responsibility for the consequences of our actions; and, 
evaluating all information before rushing to judgment. I have had the 
honor of serving as the first woman Chairman of the Nez Perce Tribe, 
and, currently, as the Tribe's Executive Director. In these roles, I 
have had the privilege of witnessing both the United States and the 
Tribe employing these principles in making decisions and setting 
policies. Simply put, H.R. 6247 runs directly counter to all of these 
hallmarks of good governance.
    I want to emphasize that my remarks today are my personal comments. 
I am not before you today as a representative of the Nez Perce Tribe. 
Indeed, the Tribe was not invited to testify at today's hearing. I find 
this extremely troubling, given all the work the Tribe has been engaged 
in to make the Snake and Columbia River system work for fish and our 
local communities. I cannot help but notice that this serves to 
highlight the type of flawed approach to governance that H.R. 6247 
represents.
    My people, the Nez Perce, have a long history of protecting the 
interests of future generations. In the mid-19th century, the Nez Perce 
were the largest tribe on the Columbia River Plateau and one of the 
most influential and powerful. The Nez Perce homeland consisted of 13 
million acres of land in what is now Idaho, Oregon, and Washington. 
This original land base included significant portions of six different 
drainages, some of which were located here in what is now eastern 
Washington. This was home to my people, and the salmon that swam 
through the waters of the Basin were an integral part of our religion, 
culture, and physical sustenance. They still are today.
    I am indebted to my ancestors, who at the time of the 1855 Treaty 
worked to ensure that the rights we had exercised since time immemorial 
and that are essential to our people's culture, our way of life, and 
our beliefs would be reserved and secured for future generations.
    Central among the rights that the Nez Perce reserved--and the 
United States secured to the Tribe by Treaty--is our right to take fish 
at all our usual and accustomed places.
    Salmon are sacred to the Nez Perce. They are part of our religious 
ceremonies; dozens of churches and longhouses throughout the Basin rely 
on the salmon's return for our connection with this land and the annual 
return is a celebration that ensures our culture is passed from 
generation to generation. Salmon are a source of economic reliance and 
strength for our people as well. Jobs--both on and off the 
Reservation--depend on salmon survival and protection. Our commercial 
fishermen, indeed, put salmon on some of your tables as well.
    Salmon are simply the lifeblood of my people. We believe that the 
Creator has bestowed upon us the duty to protect these creatures from 
harm, just as they protected and fed us when the Creator put man on 
this earth.
    Our salmon and our people have borne the consequences of decisions 
to construct dams -such as the four dams on the lower Snake River--that 
have had devastating effects on our fish and our people. Every run of 
salmon and steelhead that returns up the Columbia and Snake River 
destined for the Nez Perce Reservation and our usual and accustomed 
fishing places in the Snake Basin is now either extinct or listed as 
Endangered or Threatened under the Endangered Species Act.
    Given this backdrop, you might expect that the Nez Perce people 
might simply demand that the United States honor their Treaty and their 
promises, and that they take responsibility for the impact those dams 
have had on the salmon and on us--and do whatever it takes, regardless 
of what the impact may be on our neighbors and our local communities.
    And yet the Tribe's support for breaching the four lower Snake 
River dams has not stopped at what is best for the fish and what it 
believes the best biology and best economics support. Instead, the 
Tribe has taken the additional step of supporting investment in local 
communities that will be affected by this decision. For example, 
decades after the construction of the lower Snake River dams, the Port 
of Lewiston continues to be subsidized by local residents. The Tribe's 
vision is not to dismantle the Port of Lewiston but to transform it 
from a subsidized ``seaport'' to an economically viable and sustainable 
enterprise.
    This example demonstrates that each situation involving 
hydroelectric dams involves case-by-case considerations, full 
consideration of all information and all the parts of the equation, and 
taking responsibility for the consequences--both positive and 
negative--of our decisions.
    It is precisely this process of consideration and evaluation, the 
hallmarks of good decision-making, that H.R. 6247 seeks to prevent. It 
is primarily because of this, in addition to the fact that this bill 
would do great harm to our salmon and the waters they travel and thus 
to Nez Perce culture and our economic viability, that I so strongly 
oppose H.R. 6247.
    Anyone who cares about restoring salmon to healthy, sustainable, 
and harvestable levels will fiercely object to Section 8 of this bill 
which could end or severely restrict the highly successful practice of 
spilling water over the federal dams on the Snake and Columbia rivers. 
The science on this matter is clear--spill is the most effective and 
safest means of getting salmon past the federal dams. What's more, the 
fish have told us the same story. Since spill has been implemented in 
2006 on the Columbia and Snake rivers, we have witnessed salmon 
returning to the Basin in higher numbers. Salmon, of course are still 
endangered and threatened, and spill alone is not the reason for higher 
returns, but without spill, our salmon populations would be far worse 
off. Our fishermen would have emptier nets; our people would have gone 
hungry; thousands would have lost their jobs and hundreds more not 
found new jobs; and millions of dollars in the local economy would have 
slipped away. We understand that some believe that the so-called 
``cost'' of spill in power revenue has been too high for the positive 
impacts we have seen. I ask you, what is the price for ensuring 
thousands of family-wage jobs, that the tribal sacrament is delivered 
to tribal people, that a culture and way of life--both tribal and non-
tribal--continues, and that the United States honors its promises to 
Indian people? It is past time that the killer of more than 90% of the 
salmon--the Federal Columbia River Power System--do more to help this 
important resource. The Nez Perce has fought hard to secure the simple 
tool of more spill, and the Tribe will continue to fight for its 
implementation.
    Similarly, Section 11 of H.R. 6247--Federal Funding Prohibitions on 
Federal Dam Removal prohibits federal dollars from being spent both on 
studying ``the removal, partial removal, or breaching of any Federal or 
non-Federal hydroelectric-producing dam on the removal of federal or 
private dams,'' and the actual removal, partial removal, or breaching 
of such projects with Congressional authorization.
    The bill's prohibition on even studying potential dam removal is 
simply counter to sound federal decision-making. It is imperative that 
federal agencies have the ability to study different actions to ensure 
that the federal government is using its resources well, that it is not 
wasting precious federal dollars, that it is doing its best to protect 
our environment for future generations, that it is looking before it 
leaps, and that it is meeting Treaty and trust responsibilities to 
Indian people. To block the ability of federal agencies to even 
consider when such actions might be needed will ensure that the federal 
government doesn't have the data it needs to make well-informed 
decisions. As I indicated, the Tribe's perspective is that breaching 
the four lower Snake River dams should encompass an investment in local 
communities. The latter aspect would certainly benefit from additional 
study. In short, any legislation that essentially bans the collection 
of information is a bad idea and not in the public interest.
    Our people have been repeatedly harmed as the Columbia Basin became 
the most dammed watershed on the planet. Federal, state, and tribal 
scientists tell us that removal of the four dams on the lower Snake is 
the action most likely to protect and restore salmon populations 
throughout the Columbia Basin. These salmon are not just an icon of the 
Northwest, they are an economic powerhouse and a cultural imperative. 
It is beneath the integrity and intelligence of the United States to 
prohibit federal agencies from even studying the removal of these dams.
    Section 12, prohibiting federal funding for dam removal mitigation 
activities unless Congress explicitly authorizes such actions, is also 
highly problematic. This would all but prevent lands and waters 
impacted by dam removals from being restored. Instead of allowing such 
areas to become productive and healthy, thereby paying dividends for 
Americans, this bill virtually guarantees that these resources would 
remain degraded. The Tribe has experience with restoring such 
mitigation activities and can attest to the benefits these actions 
have--both to the salmon and to the economy. Restoration and mitigation 
projects put people to work. Why, in the current economy, would 
Congress want to make it harder for federal agencies and private 
entities to create new jobs? Similarly, why would Congress want to make 
voluntary and collaboratively-developed restoration projects virtually 
impossible to implement? These community-driven, public-private 
partnerships are among the most cost-effective and successful ways to 
restore resources. If the sponsors of this bill are worried about 
federal spending, the appropriate place to address that concern is in 
the appropriations cycle for particular agencies. Instead, this section 
would hinder important job-producing projects and hamper the 
restoration of rivers and lands.
    Our people are affected by non-federal projects, such as the Hells 
Canyon Complex, and the Tribe has been involved in the efforts by Idaho 
Power Company to obtain a new 40 or 50 year license from the Federal 
Energy Regulatory Commission. The H.R. 6247 proposal that the fish and 
wildlife Trustee agencies' (USFWS and NOAA) expertise over conditioning 
licenses to protect fish and wildlife resources be stripped and left to 
FERC seems unconscionable.
    Finally, the bill's flaws are highlighted in areas such as Section 
3(7), finding a National interest in protecting and promoting 
hydropower. This is misguided. Each dam must be judged separately, on 
its own merits and on a case-by-case basis, to see if its cost to 
society is higher or lower than its benefit. To make a blanket 
statement that it is in the best interest of Americans to retain all 
current dams is not just simplistic, it is inaccurate. It is not, for 
instance, in the best interest of this nation to keep in place dams 
that are killing what was once the largest salmon run on this planet; 
that have caused the loss of 10s of 1000s of jobs; that are 
jeopardizing a way of life for both Indian and non-Indian people; that 
are holding back a region from being more prosperous; and that 
interfere with and could indeed violate the United States' treaty trust 
responsibilities to Indian people.
    My Tribe, the Nez Perce, is working to ensure that wild/naturally-
spawning runs are rebuilt to healthy, harvestable levels, and the 
conservation burden is fairly shared. The Nez Perce Tribe, as a 
fisheries co-manager, is actively engaged in managing the Treaty 
fishery, improving passage conditions for salmon through the mainstem 
Columbia and Lower Snake River dams, improving the transparency of 
scientific issues concerning the needs and status of the fish, 
implementing habitat restoration and hatchery projects, and ensuring 
that actions that are taken today are consistent with the needs of its 
future generations. H.R. 6247 would directly impair the Tribe's 
progress toward restoring self-sustaining, harvestable salmon and 
unwisely excuses the federal government from its own responsibilities. 
It is counter to careful, adaptive regional planning, and it's bad for 
fish. I believe the United States is--and should be--better than this.
    Thank you for the opportunity to provide this testimony.
                                 ______
                                 
    The Chairman. Thank you very much for your testimony.
    And now I will recognize Mr. Jim Yost, who is the Chairman 
of the Power Committee of the Northwest Power and Conservation 
Council out of Boise, Idaho. Mr. Yost, you are recognized for 5 
minutes.

 STATEMENT OF JAMES A. YOST, IDAHO COUNCIL MEMBER AND CHAIRMAN 
   OF THE POWER COMMITTEE, NORTHWEST POWER AND CONSERVATION 
                     COUNCIL, BOISE, IDAHO

    Mr. Yost. Chairman Hastings, Congressman McClintock, thank 
you and the staff and the ratepayers for the ability to present 
a little bit today. There is a big advantage in being next-to-
last on the schedule. The advantage is I get to sit next to the 
second-best potato-growing person in the United States.
    [Laughter.]
    Mr. Yost. The disadvantage is that many of the speakers----
    The Chairman. This will not count on your time, but we get 
more tonnage per acre than Idaho, and I always remind my 
colleagues of that.
    [Laughter.]
    Mr. Yost. They are smaller and they are a little bit 
bitter.
    [Laughter.]
    Mr. Yost. The disadvantage is much of what I had prepared 
in my written statement has already been presented, but I have 
gone through for the Committee and listed over a dozen benefits 
of the hydro system with a little explanation of what it means.
    It means a lot to Idaho particularly because, as a nation, 
7 percent of the electricity is produced by hydropower. In 
Idaho, within the boundary of Idaho, 80 percent of our 
electricity is produced with hydropower. All of the water that 
we use to generate electricity in Idaho is also used on the 
lower Snake River and the mainstem Columbia project. So it is 
used again. It is the best renewable that we have for energy. 
It is clean. It is dependable. We know what it is going to be. 
Even with different water years, we know what it is going to 
be. It extremely reliable. It is flexible. You can turn it on 
and off. It is efficient. Hydroelectricity is about 90 percent 
efficient. Even a good, gas-fired turbine is only 60 percent 
efficient.
    And I want to comment on wind power. Wind power is fine if 
it is a small percentage of your resource base, but let me give 
you a comparison of wind power. It is like planting 100 acres 
of potatoes but you can only harvest 30 acres and only 5 acres 
are under contract. That is what wind power is.
    [Applause.]
    Mr. Yost. And when you have a resource base that is energy 
and you are trying to incorporate wind, if you have 10 or 12 
percent wind in the system, it doesn't severely impact 
operations. You can maintain stability, reliability. You can 
ramp up and down. All of those things are fine. But as BPA in 
the Northwest and Idaho Power and a couple other industries are 
finding, after you get a larger percentage of wind in your 
base, then for every 500 megawatts of wind that you add, you 
have to add a coal-fired or a combined-cycle gas-fired turbine 
because you can't count on the wind. It is not reliable, and it 
produces energy but no capacity. That means when you flip the 
lights and you need a lot of energy all at once, you can't rely 
on wind. It doesn't generate electricity when you need it. It 
has no capacity.
    It is like Beanie Babies, the fad of Beanie Babies. 
Everybody had to have Beanie Babies. Well, wind is a fad that 
everybody has to have wind, and then you buy all of these 
Beanie Babies and you load up the shelf and you got all of 
these Beanie Babies. And what are they good for? Well, not 
much. And that is the same with wind. It is just a fad.
    But I want to talk about the legislation. I think it is 
important. I think that it is a breath of fresh air for what is 
happening. I appreciate at least some common sense coming into 
play because the hydro system is faced with FERC relicensing or 
biological opinions, Federal agency regulations, and the costs 
are increasing and the regulations are increasing. We are 
taking the flexibility from the hydro system. If we take it 
away from the hydro system, we have to add natural gas to 
provide us that reliability factor or capacity, as we call it 
in the industry, for the system.
    So I appreciate the opportunity to present with you today.
    [The prepared statement of Mr. Yost follows:]

           Statement of James A. Yost, Idaho Council Member, 
                Northwest Power and Conservation Council

    Chairman Hastings and members of the House Natural Resources 
Committee, I thank you for the opportunity to testify and present 
comments on this legislation and about hydropower in general in the 
Pacific Northwest and specifically Idaho. I am one of two Idaho members 
of the Northwest Power and Conservation Council and current chairman of 
the Council's Power Committee. These remarks will represent generally 
known facts of the hydropower system and river operations specific to 
Idaho and have not been reviewed by the full Council.
    The hydropower system in Idaho includes the major Snake River 
headwater facilities at Jackson Lake in Wyoming and Palisades (Bureau 
of Reclamation) in Idaho. The large regulating Reservoir of American 
Falls in Southern Idaho and then downstream through several other ``run 
of the river'' projects to the Hell's Canyon Projects (Brownlee, Oxbow, 
and Hells Canyon) all operated by Idaho Power Company. The Snake then 
flows through the Four Lower Snake River Dams to merge with the 
Columbia River. There are numerous other smaller dams and diversions 
from these headwaters to the Lower Snake River Dams. In addition, 
Dworshak Dam (US Army Corps of Engineers) on the North Fork of the 
Clearwater River at Orofino is another major facility in Idaho. 
Northern Idaho also contains several dams and the river system is 
greatly influenced by the large Libby Dam in Montana as well as several 
smaller dams in that state.
    This dynamic network of hydropower facilities provides 
hydroelectric power at low prices and does so with a number of 
additional benefits. I would like to provide you with some of the 
benefits of hydropower:
    Renewable: Most of the renewable energy in the United States comes 
from hydropower (96%). Hydropower facilities harness the energy of 
falling and flowing water to generate electricity. This water is 
continually being replenished. As a matter of fact, hydropower is the 
best of renewable resources today, even if some agencies and states 
won't provide the credit deserved. It not only provides energy, it 
provides capacity. Wind doesn't get close and provides about as many 
problems as it solves because it is intermittent and provides minimal 
capacity.
    Clean: The fuel for this power generation is water and has no air 
contaminate discharge, no CO<INF>2</INF> or particulate matter.
    Reliable: This generation is flexible and can provide power to meet 
changing demands for electricity. It can produce very little when there 
is no demand (at night) to maximum output during hot or cold times or 
during heavy loads and can do so in a very short time period. The fuel 
source is reliable on an as needed basis, can be stored for short 
periods of time to meet peak demands, and is available to all other 
down-stream hydropower generators.
    Efficient: Hydropower turbines today generate to about 90% of the 
energy available much more efficient than other forms of electrical 
generation.
    Flexible/Stable: The hydropower system can respond quickly to 
changes in demand which is essential to maintaining the reliability of 
the electrical grid. This issue is becoming more critical with the 
addition of wind, an intermittent resource that needs ever more 
integration to get it on the power system and maintain operational 
reliability.
    Secure: The fuel source is the domestic water/river system of the 
region and not dependent upon foreign suppliers, cost fluctuations, or 
transportation issues.
    Cost Effective: The hydropower system has low operating costs and a 
long power plant life. Original life of 30-50 years can be extended and 
remain in service for twice that long.
    Low Risk: There are no fuel cost risks. Historical water records 
provide sideboards for water availability that is confirmed or adjusted 
based upon snow pack and water content of snow pack as it accumulates 
and well before it enters the system as run-off.
    Stored energy: Energy can be stored in many projects in the 
reservoir pools and used for generation as needed.
    Waste: There is no waste stream.
    Start Capability: The facilities can start quickly and ramp up 
quickly compared to other generating resources which can take hours/
days/weeks to begin generating electricity.
    Employment: The Operation and Maintenance of the hydropower system 
is minimal but provides employment opportunities and future development 
will provide additional employment opportunities for those in the local 
area. Not only in construction but also in engineering, planning, 
licensing, permitting, and other aspects of project implementation. 
Operation and Maintenance costs are predictable and stable.
    The above represents some of the more direct benefits of hydropower 
and the hydropower system, especially when compared to other types of 
generating resources. However, there are additional benefits that are 
equally important even if indirect.
    The hydropower system provides flood protection. All facilities in 
the Northwest and Idaho were constructed for two major purposes, power 
generation and flood control. Without some controls, the river system 
would overwhelm communities and properties. Flood control was not to 
provide entire river management but to take the peak run-off events to 
some moderate level. This not only prevented severe damage but provided 
some degree of assurance for those who benefited from the power, 
communities, and a transportation system. Without Libby Dam flood 
protection this last spring, the community of Bonners Ferry Idaho would 
have experienced major flood damage.
    In Idaho, especially the Southern Snake River Plain, agricultural 
irrigation was also a major benefit from the construction of hydropower 
facilities. The water provided a growing season in an arid high desert 
and agricultural produce became a major economic main stay for Idaho. 
With this commodity production came families, communities and economic 
prosperity opportunities.
    This hydropower development changed the fish and wildlife 
opportunities from a flash flooding river environment to a more 
controlled pool and ripple environment. Those hydropower projects 
provided mitigation for fish and wildlife impacts and have continued to 
improve habitat for fish and wildlife and provide for additional 
recreational opportunities in excess of the original environs. Water 
flows can be shaped to enhance a fishery. Each year with additional 
information, the Northwest makes improvements to fish passage, by-pass, 
and all main-stem passage at the hydropower facilities. Transportation 
has also improved over the years as better data enlightens the 
operations.
    Also the water of this system can be used from domestic, municipal, 
and industrial water supplies.
    The Columbia and Lower Snake River Dams and the lock system created 
the opportunity for an inland port at Lewistown Idaho. There was 
upstream passage without these eight facilities but it was very limited 
in size of vessel and time of year. This is an important benefit for 
Idaho and the transportation of our produce to markets.
    The operations of the Montana facilities have impacts upon the 
resources of Idaho. White Sturgeon and other resident aquatic species, 
flood control, river management decisions in Northern Idaho all hinge 
on the ability to coordinate reservoir and river operations with 
Montana.
    The hydropower system of Idaho generates electricity the same as 
the downstream states of Oregon and Washington, however, there are 
different river operations that need be given due consideration. The 
snow pack in Idaho contributes to river flows at a different rate and 
time. The major run-off or peak freshet is generally between the middle 
of May and the middle of June. There won't be high flows and the 
reservoirs won't be full until about that time. Man may want to change 
it but Mother Nature just doesn't let the snow melt until that time of 
year. Idaho then tries to accommodate the Biological Opinion for Salmon 
by providing additional water from Idaho when it is available from 
those that own the water rights. That water is provided downstream upon 
reasonable requests. Water from Idaho is also provided from Dworshak 
Dam for the Biological Opinion.
    While the nation's benefit of hydropower is only about 7%, Idaho 
receives 80% of the in state electrical power generation from 
hydropower generation. Idaho has the third lowest electrical rate as a 
result of hydropower. Will the rates in Idaho and the Pacific Northwest 
increase? Yes, as the costs of Biological Opinions, FERC relicensing, 
regulatory requirements, mitigation, and higher cost of intermittent 
resources (wind and to some degree solar) continue to increase and 
force additional operations expenses, the rates and bills of consumers 
will go up.
    This legislation would provide an excellent opportunity for 
breathing room at status quo operations until technological 
improvements provide for a more efficient coordinated power system. In 
Idaho and the Northwest, the hydropower system will remain the base 
upon which we build. It is a powerful renewable resource without the 
downsides of wind and solar. It has proven to be reliable. It is 
economical. It is efficient. It is the best energy source we have in 
Idaho and the Northwest. Try not to mess it up.
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Yost.
    [Applause.]
    The Chairman. And now we will recognize Chris Voigt, the 
Executive Director of the Washington Potato Commission out of 
Moses Lake.

STATEMENT OF CHRIS VOIGT, EXECUTIVE DIRECTOR, WASHINGTON POTATO 
               COMMISSION, MOSES LAKE, WASHINGTON

    Mr. Voigt. Thank you, Chairman Hastings and Representative 
McClintock. I appreciate this opportunity.
    But I want to start actually by recognizing my son. As I 
was sitting around the kitchen table the other night preparing 
some comments for today, he asked what I was doing, and he 
excitedly ran off to his room, dug through a pile of old 
homework that he had stashed, came out and said, Dad, I think I 
can help. And he handed me the report that he wrote on the 
Grand Coulee Dam and the benefits after he did a tour in the 
summer. So I wish he was here. So I am wearing his tie that he 
gave me for Fathers Day in his honor.
    The undisputed fact is that we can grow more potatoes in 
the Columbia Basin than anywhere else in the world, more 
potatoes per acre, undisputed fact. The reason for that is 
because of our dams, because of the plentiful irrigation water 
that we have in the Columbia and the Snake River system. That 
is the only reason. Without that water, we would have 
absolutely no potatoes. We can grow more potatoes with fewer 
resources than anywhere. That is $750 million worth of 
potatoes. That is a substantial amount.
    But what is even more substantial is the food processing 
that we add to that crop, the value-added production, and that 
food processing is here because of our hydropower costs. They 
are low. They can compete in a global food market with the high 
yields that we have and the availability of inexpensive 
hydropower. We go from a $750 million industry to a $4.6 
billion industry, over 23,000 jobs, just related to the potato. 
This doesn't take into account all the other crops that we grow 
here in the Columbia Basin. So a huge economic impact to the 
rural communities here in eastern Washington because of our 
dams.
    We have covered a lot of points, but one thing that I 
really want to stress that really hasn't been talked about much 
and it is troubling is that we need more dams, not less. That 
is the other undisputed fact. And the reason why I say that is 
because the U.S. Census Bureau has predicted that in the year 
2027 we are adding another billion people, and most experts 
will agree that because of the population growth and the change 
in diets, as we are moving people in developing countries from 
poverty to a low middle class, their diets change. We have to 
raise 40 percent more food.
    Now, in the old days, that was easy because we had it 
figured out. We could take nitrogen out of the air and condense 
it into a fertilizer pellet and feed it to the plant. Yields 
went off the chart. We could keep up with population demand. 
And then we figured out plant genetics. We could cross plants 
and increase yield through genetics and through hybridization 
and now biotechnology. We were able to meet the challenge back 
then. And then we figured out how chemical molecules can get 
rid of pathogens like fungus and bacteria and weeds and 
insects, and we were able to grow production.
    Well, we have maxed out those technologies. We don't have 
any more rabbits that we can pull out of the hat when we are 
dealing with population growth. So this 40 percent increase in 
food capacity that we have to accomplish is going to be the 
greatest challenge that our society is going to face. Now, we 
might reach that 40 percent. Maybe we can cobble it together, 
but the next 40 percent increase that we are going to have to 
get to after that in the year 2046, that is where our children 
are going to have to be making the decision of who eats today 
and who does not because that will be a challenge. In the next 
50 years, we are going to have to produce more food in the next 
50 years than we have in the entire lifetime of this planet. 
And those are overwhelming facts, ladies and gentlemen.
    We have to find more water resources because irrigation 
increases crop yields tenfold. You talk to a wheat grower who 
is growing 30 bushel per acre. It took 2 years to grow that 
outside of Ritzville, let us say. The guy across the street in 
the Columbia Basin project grows 150 bushel of wheat every 
year. That is a tenfold increase. So we need to somehow be able 
to figure out how we can harvest the excess flow of water out 
of the Columbia and Snake River and temporarily park it 
somewhere behind a dam, whether it is an off-channel dam or 
whether it is a dam high up in the water system. But it is a 
necessity. It is our moral obligation, the role that we have to 
play in the world.
    And hunger is not going to affect our country. MSNBC came 
up with a report today saying that because of the drought, food 
costs for the average American family is going to cost $621, 
$621. Well, that means my wife is going to have to wait on her 
new iPhone a year. But to someone in a developing country, 
$621? That is half their income. They will not be able to 
afford food. We have lost our cushion of food supply. That is 
no longer there and we have to take actions now to prepare for 
the next 50 years of how we are going to feed 2 billion more 
people.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Voigt follows:]

 Statement of Chris Voigt, Executive Director, Washington State Potato 
        Commission, Advisory Board Member, Family Farm Alliance

    I would like to thank Chairman Hastings and the entire Natural 
Resource Committee for this opportunity to appear before you today. I 
see today's hearing as an opportunity to launch a serious discussion on 
the roles of dams and hydro electric power in this region as well as 
the rest of the United States.
    Like most people in the farming community, I have an inherent love 
of nature and all places wild. I understand Mother Nature and work with 
her to find sustainable solutions to grow food. I'm able to recharge my 
batteries after a busy growing season by finding seclusion in 
backpacking, hunting, rafting or my favorite, fly fishing. This 
closeness and partnership with nature gives us in the farming community 
insight into pragmatic solutions on how to balance man and nature. The 
current operation of the Columbia and Snake River systems is a good 
example of balancing the needs of man and the needs of nature. Fish 
populations have rebounded, habitat has improved, and food production 
and power generation have continued.
    To meet the future demand for food and energy, it is imperative 
that we begin to lay the immediate ground work to expand water storage 
and hydropower generation. I believe it's naive to think that we can 
feed an additional two billion people and reduce our reliance on fossil 
fuels without growing our portfolio of water storage and hydropower. 
While there are several provisions of this Bill, my comments will be 
directed to those provisions that most affect food production.
Background on the Role of Dams in Food Production
    Dams play a critical role in the production of food for this 
country and for others who are unable to feed themselves. I'd like to 
quickly touch on the obvious benefits they play.
Irrigation Water
    Just as everyone in this room has to water their home gardens, we 
too have to water our crops. There is no better place in the world to 
grow potatoes than here in the Columbia Basin. The average potato yield 
in this country is just over 20 tons per acre. The average yields in 
the Columbia Basin are 50% higher than that, but even that number is 
misleading because a significant portion of the crop is harvested early 
to meet market demands, which in turn, sacrifices higher yields. There 
are several farms here in the Columbia Basin that have produced over 50 
tons/acre. No one in the world can produce more food per acre, with 
fewer inputs, than here in the Columbia Basin. But 80 years ago, no one 
knew that, until we added water. The creation of the Columbia Basin 
Irrigation Project allowed the desert to bloom and created sustainable 
farming and economic development to some of the most depressed counties 
in the State.

Power Generation
    Farmers rely on cost effective, reliable, energy to produce their 
crops. An average potato field requires various pumps, fans, and motors 
to move water and keep the crop cool in storage. Potato and other food 
processors also rely on low cost hydro power.
    One of the reasons Washington State attracts a large presence of 
food processors is because of their ability to switch between 
electricity and natural gas to power their operations. This gives them 
added flexibility they might not have in other regions of the country. 
They can switch to electrical use when natural gas prices rise. 
Washington agriculture can compete in a global market place because of 
our low cost hydro power.

Transportation
    The dams of the Columbia and Snake River system provide the most 
cost effective way of transporting many agricultural products. One 
barge tow can take over 538 trucks off the road. It is also the 
equivalent of 140 rail cars. The use of barges on the river system 
saves on wear and tear of our highways and also has the fewest 
emissions compared to other modes of transportation.

Economic Benefits of Irrigation
    There are currently 165,000 acres of potatoes produced in 
Washington State, over 90% of them grown here in the Columbia Basin. 
The ability to deliver the precise amount of irrigation precisely when 
the plant needs it, has allowed us to produce high yields and high 
quality. This has attracted many food processors to the area which add 
value to the crop. Almost 90% of the potato crop in Washington State is 
processed into value added products. This large amount of value added 
business has made the economic value of the potato crop rise from the 
farm gate value of $750 million to over $4.6 billion. The potato 
industry is also responsible for over 23,000 jobs in the State. All 
this economic activity occurs from just one crop of potatoes. All 
because we have access to irrigation water that is stored behind dams 
that produce clean and cost effective hydro electric power. Without 
access to this irrigation water, our industry would be approximately 
\1/10\ of its current size with little to no additional value added 
processing.

Why We Need More Water Storage-Global Demand for Food
    World population current stands at just over 7 billion people. The 
U.S. Census Bureau predicts that world population will reach 8 billion 
in the year 2027, and 9 billion in 2046. The irrigation waters that 
dams provide will be even more critical in the future. It is not going 
to be an easy task to feed an additional 2 billion people, especially 
since a large portion of the population in developing countries will be 
moving from poverty into a bulging middle class. This rise in economic 
stature will spur a large increase in the demand for protein, which 
will require an even higher level of crop production. It would be naive 
to think we can meet the future demand for food without new water 
storage.
    Most experts agree that we will have to increase food production by 
40% within the next 15 years. In the past 70 years, agriculture has 
been able to meet the growing demand for food through the use of plant 
genetics, pest control, and synthetic fertilizers. We are near the 
point where we have maxed out those technologies.
    The only two ways to significantly increase food production will be 
to expand acreage or increase irrigation on existing farmland. 
Expanding acreage is problematic since all ``good'' farm land is 
already being farmed. We would have to expand into lands that are poor 
for food production, such as lands that maybe high in salt or not have 
the proper pH for good plant growth. Plant genetics may help us here if 
we can develop plant varieties that are tolerant to those poor soils 
fast enough. The other alternative, also problematic, is to convert 
more native habitat to farmland. An example would be cutting down more 
rainforest to accommodate farming.
    Irrigation is a solution that produces higher yields and more food. 
The challenge becomes, can we divert more water for food production 
with no or limited impacts to the environment. This will be a challenge 
in many parts of the world but we are blessed with abundance here in 
the PNW. There is excess flow in the Columbia and Snake River systems, 
but unfortunately, those excess flows do not occur when the water is 
most needed. The solution is more water storage. Off channel storage or 
storage high in the system would be the best approach and give the most 
flexibility. We need to take the excess flow from the river when it is 
not needed for fish, power generation, or food production, and 
temporarily park it in storage, and release it when it is needed. This 
strategy can actually improve the environment for fish, increase power 
generation, and increase food production. More dams are needed, not 
less.
    As our safety cushion of food supply diminishes with population 
growth, the most vulnerable are at risk. It is our moral duty to 
increase food production and the PNW well situated to do our part.
Need for Expansion of Electrical Power Generation
    Electrical demand will continue to grow as the world slowly 
transitions away from fossil fuels and more and more households utilize 
electrical products and vehicles. Hydropower will play a critical role 
in power generation and stable power management. Water storage and 
hydropower are also critical for integrating other renewable power 
sources like wind and solar.
    The effects of potential climate change will also require the use 
of dams to mitigate potential impacts to society. Climate models in the 
PNW show that we will have similar precipitation but it may be in the 
form of more rain and less snow pack. The models also predict that the 
snowpack will melt sooner which is very detrimental to peak water, 
power, and stream flow demands in July and August. Water storage 
projects are going to be critical in mitigating impacts to food 
production, fish needs, and power generation.

Financing Projects
    We are very supportive of the provision in the Bill that allows 
non-federal parties to complete studies and finance projects. It's 
obvious that the federal budget has little to no room to meet the 
repair and replacement needs of existing infrastructure in this 
country. This situation makes it very difficult to fund any new 
projects. Provisions to provide more private investments will be needed 
to meet the infrastructure needs of this country. A good example of 
this is a local effort to fund $700 million of a $775 million project 
in the Odessa Sub Area. Local land owners will form Local Improvement 
Districts and sell bonds or seek private loans to fund the water 
delivery infrastructure needed in this area rather than asking Congress 
to pay for the full construction costs up front with 50 year repayment 
terms.

Authorizing Hydropower Development on Existing Water Projects
    The irrigation districts and Bureau of Reclamation manage thousands 
of miles of man-made canals and other water delivery structures. 
Streamlining the process to site small scale hydro projects on these 
structures is an easy way to increase clean hydro production with 
little to no environmental issues. But it's important to note that 
these types of small hydro projects should not be allowed to interfere 
with the primary use of water delivery.

Transparency and Reporting
    We believe this provision of the Bill would be useful in making the 
public aware of the efforts involved in protecting and enhancing fish 
passage and the level of coordination and cooperation. I see no down 
side to this provision.

Creation of New Funding Source by Targeting Repayment Funds to 
        Reclamation Account
    We support this provision of the Bill as a means of funding water 
infrastructure. In the simplest of terms, this fund is like a bank 
handling a mortgage. As a home owner makes payments to the bank, the 
bank turns around and used those funds for new home loans. As water 
users make payments to the federal government for the cost of water 
projects, those funds could be used to fund the next project that would 
be paid back over a period of time.
    On behalf of the Washington State Potato Commission and the Family 
Farm Alliance, I would like to thank the committee for the opportunity 
to offer comments on the value of water storage projects and hydropower 
facilities. I sincerely hope that my comments illustrate the importance 
of irrigation water and hydropower to current and future food 
production.

About the Washington State Potato Commission
    The Washington State Potato Commission (WSPC) is a grower 
organization with oversight provided by the Washington State Department 
of Agriculture. The primary focus of the WSPC is to address concerns 
that may affect the sustainability of potato farming in Washington 
State and to provide vision to address future sustainability concerns.

About the Family Farm Alliance
    The Family Farm Alliance (Alliance) is a grassroots organization of 
family farmers, ranchers, irrigation districts and allied industries in 
16 Western states. The Alliance is focused on one mission: To ensure 
the availability of reliable, affordable irrigation water supplies to 
Western farmers and ranchers. We are also committed to the fundamental 
proposition that Western irrigated agriculture must be preserved and 
protected for a host of economic, sociological, environmental and 
national security reasons--many of which are often overlooked in the 
context of other national policy decisions.
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Voigt, for your 
testimony.
    [Applause.]
    The Chairman. We will now begin the rounds of questioning, 
and we too, Mr. McClintock and I, will both be on the 5-minute 
clock. So as we ask questions, if you could be cognizant of 
your answer in that same timeframe.
    I will start with myself first, and I am going to ask a 
question of all of you. But in view of the fact that, generally 
speaking, in the last 5 years the salmon runs have been very 
good, I want to show you a clip of Judge Redden. It takes about 
a minute and a half, and then I am going to ask a question and 
ask you to comment on that. So if you would show this clip, I 
would appreciate it.
    [Video shown.]
    The Chairman. Now, my questions to you--now, Judge Redden 
has retired, as you know, but for 7 years he held up 
essentially the BiOp on the Columbia River. And my question to 
you--and you heard some of the statements he made. My question 
to all of you--it is a two-part question. Do you believe what 
Judge Redden said that a more aggressive action relative to the 
dams is needed, number one? And number two, do you think that 
the courts running the dams is a good idea? We will start with 
you, Mr. Flint. Real briefly because I want everybody to answer 
that. So real briefly.
    Mr. Flint. No and no. I don't know how else to say it. I 
have always felt that Judge Redden had a conflict of interest 
with--and particularly his wife, and I thought that has always 
clouded this issue.
    The Chairman. Ms. Rowe?
    Ms. Rowe. I will agree with Tom and I will help him out 
again. No and no. I think what we heard in that testimony there 
is a lot of the ``and, uh, but, uh, and it.'' Absolutely not.
    The Chairman. Mr. Heffling?
    Mr. Heffling. No and no again. What we find with the courts 
instructing us on what to do is we do things and we don't know 
what benefits the salmon. I mean, we have been spilling for all 
these years. What we have found is improved ocean conditions 
has actually improved fish runs. So we don't know whether or 
not the spill actually helps.
    The Chairman. Mr. Sanders?
    Mr. Sanders. Well, nothing new on the two answers. I would 
say no and no. The Snake River--of the 13 endangered species 
fish that are listed, only four go up the Snake. This 
aggressive action of just digging around the dams is kind of 
hard to get your head around on that even being done. So no.
    The Chairman. Mr. Spain?
    Mr. Spain. I will answer the second question first. Of 
course, we shouldn't be running the river by court order. That 
is the worst possible outcome. It is an outcome forced on us by 
gridlock. We do need to have a conversation regionally and we 
need to develop solutions regionally.
    To answer the question, does it make economic sense to 
spend $12 billion and counting on mitigation measures that 
haven't worked?
    The Chairman. Ms. Miles?
    Ms. Miles. Could you repeat both questions?
    The Chairman. The question is do you think more aggressive 
action should be taken as Judge Redden pointed out in the clip, 
and do you think the courts running the river is a good policy?
    Ms. Miles. Mr. Chair, having been involved directly, 
including in those back courtroom discussions, representing the 
tribe at the time, I sat in all of those court proceedings and 
also the private sessions and private negotiations that we had 
for accords. I would say that Judge Redden towed the line 
directly with his inability to order any dam to be breached, 
especially on the lower Snake River.
    The Chairman. Then answer the question because the time is 
running out here.
    Ms. Miles. Sure. So I do not believe that Judge Redden--I 
do believe the court--we requested injunctive relief for spill 
because we have proven----
    The Chairman. I understand. Answer the question.
    Ms. Miles. Yes.
    The Chairman. Yes in both cases?
    Ms. Miles. And the second question?
    The Chairman. Do you think the court running the river is 
good policy?
    Ms. Miles. I don't believe the court is running it. I 
believe the court is protecting a species that cannot speak for 
itself.
    The Chairman. Mr. Yost?
    Mr. Yost. The system, contrary to what people are saying, 
is doing pretty well. We are killing a lot of fish. Commercial 
fishermen and the ocean are killing them. People in zone 6 are 
killing them. Tribes are killing them. The sport fisheries are 
killing them. We are not trying to save the salmon. We are 
trying to kill them, and it just depends on who wants to whack 
them. That is the issue.
    [Laughter.]
    The Chairman. Answer the questions.
    Mr. Yost. The judicial system can't handle its judicial 
system, let alone running a biological river operation.
    The Chairman. Mr. Voigt?
    Mr. Voigt. Courts running it, no. You know, people in 
agriculture are pragmatic people. We are solution-oriented. And 
the courts have not really--it is just not an efficient way of 
doing it.
    Walla Walla County, because of its location on the Snake 
River, actually has the highest potato yield of anybody. A lot 
of people think Grant County, but it is actually Walla Walla 
County. So actually that potato ground is the most productive. 
Can we afford to take the most productive land in the world out 
of production? No.
    The Chairman. Good. Thank you. Obviously, my time is over, 
but I did want to give you all an opportunity to make a 
statement. Mr. McClintock is recognized.
    Mr. McClintock. Thank you, Mr. Chairman.
    Just for the record, we in California are neutral on the 
Idaho-Washington potato rivalry.
    [Laughter.]
    Mr. McClintock. Mr. Heffling, the Chairman noted--and you 
just mentioned this--salmon runs over the last year or so in 
the Pacific Northwest have been burgeoning. Our Subcommittee on 
Water and Power has received quite a bit of scientific 
testimony involving the Pacific decadal oscillation, a changing 
ocean current that sometimes favors Alaskan waters and 
sometimes favors the Pacific Northwest. Over the past 10 years, 
that current has been favoring Alaska to the detriment of the 
Pacific Northwest. It appears that current has now shifted 
back.
    To what extent does that play in the salmon runs that we 
are watching?
    Mr. Heffling. I think the ocean currents are probably the 
single largest factor in the decline of Columbia and Snake 
River salmon.
    Mr. McClintock. I have an individual in my district who 
worked with the so-called environmental groups. I call them 
``so-called'' because they really aren't working for the 
environment. They are working for this bizarre fever dream that 
I mentioned earlier. But he is convinced that the effort to 
destroy our dams and canals was coordinated with the down side 
of that cycle. They knew the cycle would be moving toward 
Alaskan waters, that there would be declining runs in the 
Pacific Northwest, and that is when they began that agitation. 
In Sacramento, we hear, oh, it is the pumps that are 
responsible for the decline in the salmon runs. Up here, we 
hear it is the dams that are responsible. But isn't most of 
this natural ocean conditions?
    Mr. Heffling. It is exactly natural ocean conditions, and 
that is why ``remove the dam'' became so popular with 
environmental people is because it coincided with poor ocean 
conditions and a drop and turning down.
    Mr. McClintock. I think this individual as well thinks that 
this was all very carefully coordinated. They expected by now 
to have prevailed on removing the dams and stopping the pumps 
and then being able to claim that the return of the salmon was 
a result of their environmental regulations when in fact it is 
something that has been going on for a very, very long time.
    Mr. Heffling. Well, that is exactly right. I mean, there 
were predictions before the first dam was installed that the 
salmon were going to go extinct. This is from a person at 
Oregon Fish and Wildlife that predicted the decline in the 
salmon. And it was all due to ocean conditions and not the 
dams.
    Mr. McClintock. And when was that prediction made, by the 
way? I think you reference it in your written testimony. Wasn't 
it 1894?
    Mr. Heffling. 1894.
    Mr. McClintock. And it reminds me of an Ogden Nash 
observation that the ass was born in March. The rains came in 
November. Such a flood as this, he said, I scarcely can 
remember.
    Mr. Sanders, I a few years ago submitted to the California 
Energy Commission a request for information on what is the 
actual cost of electricity generation from the various sources. 
And they came back and reported that the very cheapest form of 
electricity generation that we have available to us is 
hydroelectricity. They were estimating at the time between a 
half a cent and 1 and a half cents per kilowatt hour. At that 
rate, it would cost--I believe the figure was $60 a year--a 
year--for an average household's electricity bill. The next 
cheapest was coal, then nuclear. The most expensive by far were 
wind and solar.
    Now, we are told that wind and solar will replace 
hydroelectricity. What is that going to do to the price that 
consumers pay on their electricity bills every month?
    Mr. Sanders. Well, right now power from Bonneville Power 
Administration is about $30 a megawatt hour. The actual base 
price for the generation at the dams is probably $5 to $10. So 
we have nuclear costs on top of that and fish costs on top of 
that.
    Mr. McClintock. Well, that is the whole point. Once you 
eliminate the bureaucratic regulations, what are we dealing 
with in terms of the actual cost?
    Mr. Sanders. We are back up to 30 bucks, and wind is 
probably in the $80 to $90 a megawatt hour, and that is 
assuming that you can back it up with an existing hydro 
resource, which right now the flexibility of the Federal-based 
system is near maximum.
    Mr. McClintock. My time is very limited. What I want to 
underscore in your testimony is, first, you have the enormous 
cost of wind and solar. Solar is not a new technology. That was 
invented in 1839, and in 170 years of research and development, 
we have not invented a more expensive way of producing 
electricity. So you have that native cost to begin with.
    But then on top of that, as you just pointed out, because 
wind and solar are intermittent and because we operate an 
integrated grid that has constantly got to match the power 
going on the grid with that coming off, for the intermittent 
power like wind and solar that can drop off in an instant with 
a drop-off in the wind or a cloud bank passes over the array or 
the sun goes down, as it tends to do from time to time, the 
generating capacity falls off. And you have to constantly keep 
standby power instantly ready to come in and replace that 
unexpected and unpredictable drop-off.
    So we not only have to pay for these premium electricity 
generating facilities, but we then also have to pay to have 
backup facilities. If they are fossil-fueled, they have to be 
constantly running, ready to go on line at a moment's notice. 
Or you have hydroelectricity which can be turned on and off 
with a valve, but we are tearing down the hydroelectricity to 
bring in more wind and solar.
    Does that make any sense to you?
    Mr. Sanders. No.
    Mr. McClintock. And then on top of that, I just might add, 
we have huge transmission costs with wind and solar because 
they are low capacity. They require high tension transmission 
lines that are extremely expensive and usually over very, very 
long distances to transmit that electricity, which means 
further increases in our electricity rates, which was one of 
the objectives of the Chu Memo.
    I will come back to you in a few.
    The Chairman. I want to ask a question. This is a question 
again for all of you, and I alluded to this in my last question 
where the salmon runs seem to be coming back, roughly in the 
last 5 years, very robustly, which by the way, coincidentally, 
happens to be about the life cycle of the salmon. It is not 
exact.
    So this year, an estimated 650,000 fall Chinook are 
expected to come back. This summer, more than 380,000 steelhead 
came back and over, roughly, a half a million wild sockeye were 
counted at Bonneville Dam this year.
    My question to all of you is with the evidence of these 
fish runs that are coming back in greater numbers, does this 
not prove that dams and saving fish can coexist? Mr. Flint, we 
will start with you.
    Mr. Flint. Yes. I am a firm believer in the fish-friendly 
technology that we are implementing, and also, you know, we 
have one of the most respected supplementation hatcheries in 
the Columbia River system. And to be quite honest with you, 
Alaska fishermen love us for what we are doing.
    The Chairman. Ms. Rowe?
    Ms. Rowe. I would agree, yes. In fact, my husband is a 
freelance videographer for Outdoor TV and he just returned from 
a trip in Alaska and said the same thing. Fish in Alaska are 
declining as ours are repopulating and increasing.
    The Chairman. Mr. Heffling?
    Mr. Heffling. Yes, I agree. I would think the things we 
have done at the dams have already shown that they can coexist. 
We have trout submerged traveling screens that direct juvenile 
fish into bypass facilities and we also have spill gate weirs 
that pass them over the spill facilities a lot better than 
other spill gates. So yes.
    The Chairman. Mr. Sanders?
    Mr. Sanders. Yes. And I think the aggressive nature of what 
we have done, the money we have spent is working extremely 
well.
    The Chairman. Mr. Spain?
    Mr. Spain. Some qualifications on that. What ocean 
conditions do is change. They are guaranteed to change. The big 
problem, the bottleneck is when ocean conditions are bad. We 
have to take advantage of the good times so that we can work 
and buy time to deal with those problems that are going to be 
there when ocean conditions are bad so we don't wind up with 
more extinctions.
    And I want to say it is my hope, our organization's hope, 
that we can work out ways for salmon and hydropower in the 
Columbia to coexist because one of my favorite meals, frankly, 
is salmon with Washington potatoes and Washington bread.
    The Chairman. And Washington wine. Let me just throw that 
in too.
    [Laughter.]
    The Chairman. I just want to say that while ocean 
conditions change, the one constant is dams.
    Ms. Miles?
    Ms. Miles. Thank you, Mr. Chair. It is my hope and 
hopefully in my existence of being an influential person on 
this to have them coexist as this collaborative approach that 
Senator Mike Crapo discussed. The Nez Perce Tribe is the 
largest--or tribal fisheries in the country and hands down. You 
say those big returns. You are welcome. The Nez Perce Tribe, 
hands down, produces more fish--and I appreciate the comment on 
supplementation--in our hatcheries, more than Washington, 
Oregon, Idaho, State and Federal program fisheries managers put 
together. And so I do appreciate the question because it has 
been my tribe's desire and our fishermen to make that 
collaborative approach happen and continue those discussions.
    The Chairman. Mr. Yost?
    Mr. Yost. Yes, they can coexist. That is not the major 
problem today in getting additional fish back for harvest.
    The Chairman. Mr. Voigt?
    Mr. Voigt. We have made a tremendous amount of progress in 
the last 20 years, and while it has been costly, the 
collaboration that went into effect with the biological opinion 
most recently, while you can make an argument that some of the 
incremental gains probably economically weren't worth it, but 
we have made progress. And it looks good, and I think it 
absolutely documents that both can exist. We can have a healthy 
environment and dams at the same time.
    The Chairman. I am going to ask one question here and it 
probably should be at least self-evident from my standpoint, 
and so I will ask anybody who disagrees with what I am saying 
to answer in the negative. Does anybody on this panel believe 
that hydropower is not renewable? And if you do not raise your 
hand, then I am going to assume all eight of you believe that 
it is renewable.
    That is good. I appreciate that.
    [Applause.]
    The Chairman. Mr. McClintock?
    Mr. McClintock. Thank you, Mr. Chairman.
    Mr. Sanders, I would like to continue where we left off. We 
were talking about the enormous basic cost of these wind and 
solar generators, plus on top of that, the added expense that 
for every megawatt of solar or wind, you have to keep a 
megawatt of reliable, immediately obtainable backup power or 
the grid will collapse. And then on top of that, we talked 
about the increase in the transmission costs because of the 
special transmission lines that are required to carry this 
electricity over large distances.
    Now, Mr. Spain said that, oh, well, the Klamath dams--that 
is not really 150 megawatts. It is only 82 megawatts. Well, 
that is because they have been restricted from generating 
electricity by the regulations that Mr. Spain's group has been 
very successful in having imposed. Moreover, the 50 turbines 
that he says will replace it have to then be replaced by 
additional backup power on top of that. Isn't that correct?
    Mr. Sanders. Yes, that is right. I mean, if people 
basically want their home warm in the winter and their beer 
cold in the summer, and if the wind is not blowing, neither of 
those will happen. So you have to have some kind of reliable 
backup to firm up the wind. And it is megawatt for megawatt.
    Mr. McClintock. Let us talk about the cost of relicensing. 
Aren't virtually all of those costs the direct result of the 
bureaucratic regulations that groups like Mr. Spain's have been 
successful in imposing?
    Mr. Sanders. Well, I am not familiar with relicensing 
costs. I think Mr. Flint could probably talk to that more.
    Mr. McClintock. Mr. Flint, how about you? Can you answer 
that question?
    Mr. Flint. Yes, I can. We just successfully went through 
relicensing with our hydro project. We have two dams under one 
license. It costs the ratepayers of Grant County $45 million 
for that paperwork. That paperwork would sit on this table. It 
was like Sears Roebuck catalogues 6 feet high.
    Mr. McClintock. Forty-five million dollars. What does that 
mean to your ratepayers?
    Mr. Flint. That means that we are going to be paying off 
this relicensing paperwork for the next 50 years. Approximately 
it equates to probably about 10 cents or 10 percent out of 
their bill that they pay each month.
    If I may, I would also like to say that of the bill, of 
that $1 that they pay each month, 30 percent of that goes for 
fish programs.
    Mr. McClintock. Now, how much of this is related to dam 
safety?
    Mr. Flint. Dam safety is something that we take very 
seriously, and we are in the process of some direction from 
FERC who controls what we do. We currently are looking about 
anywhere from a $20 million to $120 million proposal for safety 
on dams.
    Mr. McClintock. And how does that compare to the other 
costs that you have to bear?
    Mr. Flint. Well, I will just elaborate a little bit. In the 
next 50 years, for this new relicensing, we have a plan for 
fish, recreation, safety, all those components. It is about 
$1.7 billion over 50 years, including all the paperwork, all 
the environmental things that are involved.
    Mr. McClintock. So this isn't about dam safety. We already 
have very good laws in place to assure the safety of our dams 
and very good laws that assure that those dams are safe. This 
is not about dam safety.
    Mr. Flint. No, it is not. If I may have the liberty, Mr. 
Spain here made the comment that 87,000 dams are obsolete or 
dangerous. I would like to respond to that. Ninety-five percent 
of those dams are under 7 feet tall. They don't have any power 
generation and they don't have any fish passage.
    Mr. McClintock. We are also told, oh, don't worry because 
the cost of removing the Klamath dams is capped at $200 
million, which is an enormous amount for the ratepayers. But 
that is just the tip of it. We have a water bond with $250 
million earmarked for the destruction of those dams. On top of 
that, to borrow that money, you have to pay another $250 
million in interest. So it is $200 million to the ratepayers 
and another half a billion dollars in principal and interest to 
the taxpayers of California. That comes to about $75 for every 
working family in the State. That to me seems insane.
    Mr. Flint. It is. Actually there is one part that is really 
overlooked. Anytime you take a reservoir out of production, 
there is an artificial recharge of the surrounding aquifer, and 
when you take that reservoir out of existence, all at once you 
have people's wells going dry. You have towns going dry. You 
have huge economic impacts that have not been, quite frankly, 
brought into this discussion.
    Mr. McClintock. Thank you.
    The Chairman. Mr. Spain, for purposes of full disclosure, 
you and/or your association have participated as co-plaintiffs 
in 18 lawsuits regarding fish. Is that correct?
    Mr. Spain. At least. We are a commercial fishing 
organization and----
    The Chairman. Right. No. That is fine. I just wanted to 
establish for the record that you have participated in those 
lawsuits.
    Now, in your written testimony and your oral testimony, you 
spent a great deal of your time talking about decrepit dams, 
and you used a phrase that if they are economically obsolete, 
they should be replaced and so forth.
    Now, taking that at face value, you participated in a 
lawsuit dealing with the Columbia and Snake River BiOp. Which 
of those dams are economically obsolete?
    Mr. Spain. That is a discussion that is ongoing, as you 
well know. And obviously----
    The Chairman. So you acknowledge that some of the dams on 
the Snake River and Columbia River are economically obsolete.
    Mr. Spain. I am saying that all dams everywhere have to be 
able to meet the purpose for which they were constructed. They 
have to be economically sound and they have to be 
functionally----
    The Chairman. So which ones? My question to you is which 
ones, using that term. I understand that people can have that 
debate. You participated in a lawsuit that is dealing with the 
Snake and Columbia River dams. Which of those dams are 
economically obsolete?
    Mr. Spain. I think you have had testimony already today 
that some $12 billion has been spent on fish mitigation for a 
number of the dams.
    The Chairman. Mr. Spain, I am asking you a question.
    Mr. Spain. The question really--sir, if I may be allowed to 
answer.
    The Chairman. I am asking the question and the question is, 
using your own term--and you spent a great deal of time in your 
earlier testimony--which of those dams on the Columbia and 
Snake River are economically obsolete.
    Mr. Spain. I am saying that is a discussion that is 
currently ongoing.
    The Chairman. Well, I am asking you which one do you think. 
You participated in a lawsuit. You must have thought something 
was economically obsolete.
    Mr. Spain. The outline of the discussion is how much money 
do we spend to maintain a structure that is not working.
    The Chairman. OK. Which one is not working?
    Mr. Spain. Again, that is a discussion that is ongoing. I 
have made that response.
    The Chairman. Well, Mr. Spain, in due respect, I have to 
say I am not satisfied with your answer because in your 
testimony you use that term and you participated in a lawsuit 
dealing with the major dams on the Snake River and you cannot 
tell me which one is obsolete.
    Mr. Spain. Every dam has to meet certain criteria. Is it 
meeting its function? Is it economically sound?
    The Chairman. OK. My question to you, since you are 
participating in this, which one of those dams? All of them?
    Mr. Spain. I have answered that question.
    The Chairman. Well, I don't think you did.
    Let me just have a real quick follow-up on that. I 
understand that Trout Unlimited, who was part of that, has 
withdrawn as one of the original plaintiffs of the suit in 
front of Judge Redden. Are you contemplating withdrawing?
    Mr. Spain. That was their decision because they are looking 
at trying to negotiate a settlement of this that is local in 
base.
    The Chairman. Well, as you know----
    Mr. Spain. I mean, you know, one of the problems that we 
have is we have solutions imposed by courts. We have solutions 
imposed by Congress. None of them are working. And their 
decision----
    The Chairman. In due respect, Mr. Spain----
    Mr. Spain. Their decision----
    The Chairman. In due respect----
    Mr. Spain. Sir, if I may answer.
    The Chairman. OK, I will let you answer.
    Mr. Spain. Their decision was something you will have to 
question them about, but their decision was a principled one to 
try to work for a settlement within the region of these issues.
    The Chairman. Of course, that is what the stakeholders were 
and that is why the States of Washington, Idaho, Montana, 
Columbia River Intertribal Commission, the Colville Tribe, 
among others agreed that the BiOp should go forward.
    Well, I just want to say in due respect--and part of the 
problem--and I know the Grant PUD had to go through this 
because probably the threat of litigation mainly coming from 
the Endangered Species Act--in fact, we had testimony in front 
of my Committee. We were having hearings on the Endangered 
Species Act. And if one thing has come loud and clear in the 
hearings we have had thus far--and we had one, by the way, over 
in Longview earlier this year--is the issue--it wasn't on 
salmon but it was on the spotted owl. But the issue was the 
cost of litigation, and the Department of the Interior cannot 
tell us how much they are spending defending against these 
lawsuits which, of course, slow down the whole process of 
whatever you are trying to do. A lot of those lawsuits, by the 
way, are filed with people that were getting Federal funds.
    My time is about to expire. So I will recognize Mr. 
McClintock.
    Mr. McClintock. Thank you, Mr. Chairman. I looked up the 
flow rates on the American River in my district historically. 
Before the dams, they ranged anywhere from just barely a 
trickle to a complete, violent inundation of the entire region. 
The dams changed that cycle to a steady flow of water in good 
times and bad.
    I am just wondering, Mr. Heffling or Mr. Flint or Mr. 
Sanders or Ms. Rowe--in fact, any of the folks actually from 
the area--what was the region and its ecologically like before 
the dams were constructed.
    Mr. Flint. Since I have the microphone in front of me, I 
would like to respond to that.
    You know, it is very interesting that we always hear about 
the roadblocks for fish. One of the stories that you don't hear 
is the fact that on a critical water year before there were 
dams, the Columbia was not a free-flowing river. It was 
stagnant pools. And there were fish dying by the millions 
because they were in stagnant water and they were trapped. So 
in a lot of aspects, the dams are really helping the migration 
passages for fish.
    Mr. McClintock. By the way, early explorers noted the same 
thing on the Klamath, I might add.
    Mr. Flint. Yes. That is something that nobody really talks 
about.
    Mr. McClintock. So it wasn't a gently ever-flowing river in 
good times and bad with amber waves of grain as far as the eye 
could see.
    Mr. Flint. Well, that is a utopia we would all like to have 
but it doesn't exist.
    Mr. McClintock. Well, we are told that is what we will have 
if we tear down those dams and replace them with wind and 
solar, as has just been suggested again here today. How does 
that comport with reality? Well or not well?
    Mr. Flint. Not well.
    Mr. McClintock. Mr. Sanders, we are talking again about the 
electricity prices. What can we expect to see on our household 
electricity bills if this lunatic fringe of the environmental 
left has its way and these dams come down?
    Mr. Sanders. Well, the rates are going to increase. I mean, 
there is no way around that.
    Mr. McClintock. You are going to have to pay for the much 
more expensive power. You are going to have to pay for the 
additional backup power, and you are going to have to pay for 
the specialized transmission of that power.
    Mr. Sanders. Right, yes. And a couple of issues.
    One, I mentioned in my testimony $12 billion has been spent 
on fish and wildlife mitigation in the Pacific Northwest since 
1978. We don't want to attribute that full $12 billion to the 
four Snake River dams and say if we take those out, we won't 
have to spend any of this other money. That $12 billion is the 
full impact of all the mitigation measures that have been done 
on the entire Federal-based system. So the dams on the Columbia 
River contribute to that $12 billion. The dams on the Snake 
contribute to that. So I don't differentiate those. I just want 
to be clear that the $12 billion that we have spent, you can't 
say if we just spent that on removing the lower Snake River 
dams, everything would be good.
    Mr. McClintock. Well, I have a modest suggestion on 
mitigation measures. Count the dam hatchery fish.
    Mr. Sanders. Right. That would be good too.
    The other issue that you mentioned is transmission. And we 
just assume that transmission lines are going to be built from 
the wind generation or the solar generation to the load 
centers. That is an extremely expensive proposition, and you 
end up with a NIMBY complex, ``not in my back yard.'' We don't 
want those transmission lines built because of--name the 
reason. So just to assume that we can build transmission, move 
the wind generation from wherever it is to the load centers 
is----
    Mr. McClintock. By the way, we are seeing that in the 
Northeast where the calls for wind generation were the loudest. 
Now, when people try to put in wind generators, they are told, 
oh, no, not in my back yard. I don't want you to spoil my view. 
I don't want you to chop up all of our rare birds.
    Mr. Sanders. You will notice that most of the wind 
generation is in eastern Washington and eastern Oregon. It is 
not on the I-5 corridor.
    Mr. McClintock. Just very briefly. Skyrocketing electricity 
prices. Ms. Rowe, what is that going to do to our grocery bill?
    Ms. Rowe. It will go up quite simply. So many times we talk 
about natural disasters. Our friends in the Midwest are dealing 
with that.
    Mr. McClintock. Mr. Heffling, what does that do to our 
economy? Manufacturing, for example.
    Mr. Heffling. It costs us many jobs.
    Mr. McClintock. I have never seen a single proposal that 
combines more bad policy in one single measure than what has 
been advocated by the left to tear down these dams.
    The Chairman. For Mr. Flint, I want to ask you a question. 
I alluded to the fact that there is a lot of knowledge in this 
area on fish passage. You are one of the three PUD's, Mid-
Columbia PUD's, that have dams on the system. You have two 
dams. Chelan has two dams, and I know there are some 
representatives from Chelan PUD here. And then Douglas has a 
dam. And I visit all of them and I know all the work that they 
do.
    But specifically, Grant PUD put in the Vernita Bar 
Agreement I think--I forget the exact time. Could you explain 
what the Vernita Bar Agreement did and how it is working right 
now?
    Mr. Flint. Well, you are going back a ways, so I will try 
to dust off the cobwebs. But the Vernita Bar Agreement there is 
below Priest Rapids Dam about 5-7 miles. There is a natural 
gravel bed that is in the river there. There are times in the 
past where we have de-watered that for energy production and 
for flow of the river conditions, and it was not good for fish. 
And so what we have done, we went into an agreement where we 
will keep those gravel beds for the salmon eggs watered and 
enough flowage there that there will be no mortality to those 
natural salmon beds.
    The Chairman. I think the principle here is that you--and I 
know that all five of the mid-Columbia dams are a little bit 
different. There is nothing that works equally the same on all 
five of them. I mean, I know you are having some issues with 
Wanapum and Priest Dam, Priest Rapids, for example, your two 
dams. But to me the principle here and why the Vernita Bar 
Agreement--you don't hear much about it because it has been 
successful. And the solution to that problem was made locally 
which, of course, reinforces what I have always felt, is that 
the fish knowledge here in the Northwest, given the 
opportunity--given the opportunity--to pursue these ideas, can 
be good. I know the fish passage that all of you have had. I 
know particularly Chelan's fish passage is somewhat unique, you 
know, at Rocky Reach. But it works because local people got 
together and made it work. And you don't hear any discussion 
about that anymore. And I think the Vernita Bar was the first 
of those, if my memory serves me correctly, of the mid-
Columbia's that came up with real solutions to the spawning.
    Anything more? Well, I have another question here I want to 
ask you and Mr. Sanders.
    Mr. Flint. I think we are always looking for win-win 
things. I honestly do. Things that are cost-effective and make 
sense. And that is our goal.
    The Chairman. This will be a question to Mr. Sanders and 
Mr. Flint.
    As you are aware, some of your compatriots, Okanogan PUD 
and Pend Oreille PUD and some others, are trying to relicense 
dams. They are running into problems not necessarily with FERC 
but with other Federal agencies. I know with Okanogan, for 
example, it is with BLM, entirely unassociated with producing 
power.
    We address that in my legislation. Do you think that that 
is good policy to be addressed, and so you have maybe one focal 
point on the relicensing process so there is some 
predictability? Okanogan is nowhere as large as Grant, and 
Grant spent $45 million to relicense. So that provision in the 
bill. Would you comment on it?
    Mr. Sanders. Yes. I think that is a very positive step so 
that you have some predictability. You know who to go to talk 
to. And it is not what the traffic will bear as far as how many 
tasks can you impose on a relicensing process, but rather what 
is a reasonable mitigation. So, yes, I think that is a positive 
way to go.
    The Chairman. Mr. Flint?
    Mr. Flint. I also think that is a positive thing.
    The one thing that I am not sure you are aware of, but FERC 
is the one that is in control of relicensing. And we have heard 
through the process with Chelan and Douglas that our next 
relicensing process, which will be somewhere around 40 years 
from now--all these three dams will be considered one. And so 
to be honest, I don't know if that is good or bad, but it is 
certainly on our radar screen, and I would like to bring that 
to your attention too.
    The Chairman. What we heard in earlier testimony is that 
there should be one clearinghouse and the logical one for that 
is FERC. The problem that we are seeing is something that is 
not anything related. Like the BLM issue with the Okanogan Dam, 
for example, has to do with access to the dam, nothing to do 
with flow, nothing at all. And yet, they have the means by 
which to stop a project. We address that in the bill. And my 
question was if you thought that was good policy. I hope you 
say yes.
    Mr. Flint. Well, absolutely.
    The Chairman. Justify it again.
    Mr. McClintock?
    Mr. McClintock. Thank you, Mr. Chairman.
    Ms. Miles, you have been very candid in making clear your 
statement is for yourself and not for the Nez Perce Tribe. I 
recently had a delegation, official delegation, from the Nez 
Perce. They were greatly supportive of fish hatcheries and very 
highly critical of the professional environmental organizations 
that are opposing them. What is the Nez Perce position on fish 
hatcheries?
    Ms. Miles. Thank you, Mr. Chair.
    The Nez Perce position has always been in our mission 
statement to restore healthy, harvestable salmon--make no 
mistake. We are in this to catch these fish to continue our way 
of life--harvestable levels of salmon. And so, Mr. Chair, the 
Nez Perce Tribe has been a lead in developing these unique 
supplementation types of hatcheries.
    Mr. McClintock. They have, indeed. In fact, we are told by 
professional environmentalists, oh, but they are just 
different. And is there really any significant difference 
between a hatchery fish and a fish born in the wild? Isn't the 
principal difference the same as a baby born at home and a baby 
born at the hospital?
    Ms. Miles. Mr. Chair, the tribe is working toward creating 
that scenario you speak of. That is exactly what--rearing them 
in the wild in a hatchery that doesn't look like a normal 
hatchery where they are pooled in cement, that they're actually 
learning to be wild.
    Mr. McClintock. Well, I am told in Alaska, they are now 
pioneering what they are calling ocean ranching where the 
hatchlings are released directly into the ocean and then 
harvested directly out of the ocean.
    Now, in 2010, the tribe reported that what was a run of 
1,000 in the 1990's exceeded 41,000 in 2010. Now, obviously, 
part of that is the natural Pacific decadal oscillation. But 
isn't that figure of 41,000 which, by the way, is many times 
the recovery goal set by NOAA--isn't that largely due to the 
Nez Perce's hatchery efforts?
    Ms. Miles. Yes, absolutely.
    Mr. McClintock. And shouldn't we count the dam hatchery 
fish when we're assessing salmon?
    Ms. Miles. Mr. Chair, the Nez Perce Tribe has stuck to 
their mission of we want to restore the natural, native 
populations, and we have to do that with our supplementation 
hatcheries. We have to.
    Mr. McClintock. Thank you.
    I want to get to Mr. Spain before my time expires. Mr. 
Spain, you have said that your group encourages 
hydroelectricity generation. Let me ask you what hydroelectric 
dams do you support.
    Mr. Spain. Well, first off, let me make it clear. Our 
people are ratepayers. Our people are customers, many different 
utilities. So we are tied into the grid just as much as anybody 
else.
    Mr. McClintock. If you are making the point that you don't 
really represent a lot of your members, I would----
    Mr. Spain. There are a number of dams in my own watershed. 
There are a number of dams that are being retrofitted with fish 
passages.
    Mr. McClintock. Well, we have in my district the Auburn 
Dam, 2.3 million acre-feet of water storage, 800 megawatts of 
the cleanest, cheapest electricity on the planet, 400-year 
flood protection for the Sacramento plain. Does your group 
support or oppose constructing the Auburn Dam, for example?
    Mr. Spain. That is not something I am terribly familiar 
with. I am much more familiar with Northwest dams. But, 
remember, all dams have to be considered on a case-by-case 
basis.
    Mr. McClintock. No, but again--yes, fine. On a case-by-case 
basis, what new hydroelectric dam does your organization 
support constructing?
    Mr. Spain. Well, for instance, there is the Rodgers-
McMorris Dam bill----
    Mr. McClintock. That is small hydro. That is an important 
contribution but----
    Mr. Spain.--which would set in motion dozens and dozens of 
different small, low-impact hydro plants.
    Mr. McClintock. Exactly.
    Mr. Spain. We have also been looking at wind, offshore 
wind----
    Mr. McClintock. We have already talked about wind and 
solar.
    Mr. Spain. We have also been looking at ocean----
    Mr. McClintock. So the answer is no, there is not a single 
hydroelectric dam that you can point to----
    Mr. Spain. That is incorrect, sir.
    Mr. McClintock. OK, and which one do you support 
constructing?
    Mr. Spain. Each has to be taken on their own merits, sir.
    Mr. McClintock. What dams that you believe should be torn 
down have you proposed to be replaced with a new dam?
    Mr. Spain. There are many, many ways of doing that, sir. I 
will give you an example. In the Klamath, the 82 megawatts of 
power there will be replaced. PacifiCorp is under a legal 
obligation to bring on board 1,400 megawatts of renewable 
power, in other words----
    Mr. McClintock. Well, we have already talked about----
    Mr. Spain.--to replace that, sir.
    Mr. McClintock. We have already talked about that.
    Mr. Spain. To replace that 82 megawatts lost by----
    Mr. McClintock. Do you support replacing those dams with 
new state-of-the-art dams?
    Mr. Spain. It depends on where they are----
    Mr. McClintock. On the Klamath?
    Mr. Spain.--and what impact they have on fisheries.
    Mr. McClintock. Which proposals have you supported to do 
so? Mr. Spain, do you understand when you are so evasive in 
answers to questions, it just ruins whatever credibility you 
brought in here, which to my mind wasn't much?
    [Applause.]
    The Chairman. We are nearing the time. So this will be the 
last round. I just have a couple of questions, and then Mr. 
McClintock, and then we will wrap it up.
    One of the issues that is tied to, when we talk about 
hydropower, is the power marketing authorities, of which BPA is 
one of the power marketing authorities. And the Chu Memo, which 
was simply a letter from Secretary Chu to all the power 
marketing authorities, directed them to pursue alternative 
sources of energy. It has not been much more specific than 
that. I have to be very honest with you, but it caused a bit of 
an uproar.
    Now, there is one characteristic of all of the power 
marketing authorities, and that is, they generally can govern 
all of their resources within their areas. For example, BPA 
markets the power that is generated by all of the dams. The 
irrigation districts that are created by Grand Coulee Dam, for 
example, are governed by generally local governing boards.
    So with the Chu Memo--and I want to ask all of you. And if 
you are not really familiar with it, I understand. Sometimes 
these issues get rather esoteric, so I don't expect you to know 
all of them. But the underlying issue from my point of view is 
this. If the Chu Memo were to become the policy, you would 
probably be having people in Washington, D.C. making energy 
decisions for us in lieu of decisions made in the regional 
areas, whether you are talking about BPA or WAPA in the 
Southwest or others.
    So my question to you--and I will start this time, Mr. 
Voigt, with you and we will work our way up that way. My 
question: do you think it is good policy generally to transfer 
what has been historically good governance at the local level, 
transferring it to Washington, D.C. as is represented by the 
Chu Memo? Mr. Voigt?
    Mr. Voigt. Out of respect to all the people here in 
Washington, D.C., I am not sure transferring anything to 
Washington, D.C. is the right thing to do.
    I firmly believe in local control. We have the local 
knowledge. Just like the example you gave of the Vernita Bar. 
You know, that wouldn't have been discovered in a cubicle in 
Washington, D.C. So I think if we can collaborate with the 
stakeholders on a local basis, we can find pragmatic decisions 
that will benefit us all.
    The Chairman. Mr. Yost?
    Mr. Yost. I agree that solutions can be found at the local 
level, and there isn't a solution for Washington, D.C.
    [Laughter.]
    The Chairman. Ms. Miles?
    Ms. Miles. Yes. Once again, just not in an official 
capacity for the tribe, they certainly would form an opinion on 
that question. The tribal members of all these plateau tribes 
have always been in a position that has had to directly seek 
assistance elsewhere because we can't get everybody to the 
table, and that is something that the tribes' individual 
members, fishermen, have requested. And so I do believe there 
is a local collaborative effort that we can solve the problems 
ourselves, but we haven't seen that. We haven't seen all 
parties come to the table and include everybody, which is 
essential for a local problem solution.
    The Chairman. Mr. Spain?
    Mr. Spain. Well, certainly we are great believers in 
locally based, locally developed solutions. That said, we do 
have a national power grid, and so there has to be some 
balance.
    The Chairman. Mr. Sanders?
    Mr. Sanders. The Pacific Northwest utilities have probably 
60 or 70 years of collaborative work that has gone on, and that 
has been done kind of in spite of Washington, D.C. So, no, we 
don't need the control to come from there.
    And relative to Secretary Chu's memo, I mean, we have been 
doing conservation aggressively for 30 years. We have been 
building transmission lines to support renewable energy without 
any encouragement from Washington, D.C. So that is happening 
here now.
    The Chairman. Mr. Heffling?
    Mr. Heffling. I would agree that we are much more involved 
in fish passage and operating the grid here in the Northwest 
than anybody in Washington, D.C. would understand.
    The Chairman. Good.
    Ms. Rowe?
    Ms. Rowe. Local stakeholders have the most to lose and they 
also have the most to benefit. Washington Wheat Growers believe 
in the local level participation and knowledge.
    The Chairman. Mr. Flint?
    Mr. Flint. Well, local control of your destiny is at the 
heart of public power. And to lose any opportunity to have a 
destiny in our power marketing we would be totally against. And 
I concur with Mr. Sanders. We have 60 years plus of being very 
cost-effective and efficient in how we are doing that. And to 
be quite honest with you, we are fortunate to have the 
hydropower that we have here, and there are a lot of people in 
other parts of the United States who would like to have what we 
have. And I see one way of that happening.
    The Chairman. Thank you.
    Mr. McClintock?
    Mr. McClintock. Well, thank you, Mr. Chairman.
    I am not having a lot of luck with getting specific answers 
from Mr. Spain, so I think I am going to call it quits at this 
point.
    But as I said earlier, the people in my district are facing 
the same challenges as the folks here today, and I just want to 
thank you for your leadership on this issue. I want to thank 
you for your legislation. Folks in my district are facing just 
enormous costs, and we have been talking about them, not just 
the enormous cost of tearing down these four perfectly good, 
functional dams, but then the enormous costs that they will 
bear in perpetuity for the extremely expensive power that is 
proposed to replace it with.
    And I am struck by the fact that we are being told that 
hydroelectricity, whose reliability and instant accessibility 
is absolutely essential to keep the grid from collapsing, as 
more wind and solar is being added to it, should now be 
replaced by wind and solar. That is simply silly, and yet that 
is the best answer we are getting out of the advocates of these 
ludicrous policies. The folks in my district, as in yours, are 
being asked to trade the technologically cheapest electricity 
available to us for the technologically most expensive 
electricity and being told that we should just grin and bear 
it. Well, I don't think we are going to grin and bear it any 
longer.
    What you are seeing here in this region with the public 
rising in opposition--I am watching in my own as well. And as I 
said earlier, I am not only happy to report--to carry word to 
your folks that they are not alone in this fight. I can't wait 
to get back to mine and assure them that they are not alone 
either.
    Again, thank you for your leadership. Thank you for this 
hearing. And I want to thank all of the folks here for coming 
out today.
    The Chairman. Thank you.
    [Applause.]
    The Chairman. Well, I want to thank all of the panelists 
here. Your testimony was very important, and I think this sort 
of dialogue is very, very helpful. So even though there are 
differences of opinion, listen, we live in America. That is one 
of the great things that we have is that we can disagree. But I 
do appreciate all of you very much for being here and 
participating.
    And I want to thank Troy Woody, who is the General Manager 
of TRAC, and Steve Roberts, who is the facilities manager here 
at TRAC. And of course, they are at the top, and so the staff 
does all the work, and that is James McClean, David 
Hetterscheidt, Phil Ashcroft, and Linda Tower. So that is sole 
acknowledge to them.
    And I know that Chanda Teabay had some say in all of this, 
as did Heather Soriavanksa, and the event coordinator, Christy 
Kessler.
    And I also want to thank the Pasco Police Department, Janey 
Raybel and Mike Nelson, for being here.
    So thank you all very, very much. Again, any of you that 
are inspired by what you heard here and want to have testimony 
made part of the public record, I would invite you to do so, 
and the directions are out in front.
    And for those of you that came from far and wide--and I 
know there are some that had to get up awful early to get here 
on time--we do appreciate your coming.
    So if there is no further business to come before the 
Committee, the Committee stands adjourned.
    [Whereupon, at 10:58 a.m., the Committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
